Office of Inspector General                        Semiannual Report to Congress
	
1401 Constitution Avenue, N.W.                     March 2011
Room 7898 C
Washington, DC 20230
www.oig.doc.gov
                                                                Office of Inspector General
                                                                U.S. Department of Commerce
OIG HOTLINE | 800.424.5197 | hotline@oig.doc.gov
OIG SAR covers.qxd     5/31/11      11:02 AM      Page 1




                                          Office of Inspector General


               Budget and Administration
                                                                      Inspector General                                          Office of
                     Human Resources
                                                                                                                                 Counsel
                Information Technology
                                                                           Deputy
                                                                      Inspector General
                                                                      Associate Deputy
                                                                      Inspector General
                                                                     for Strategic Issues




                                   Office of Audit                                                                 Office of
                                   and Evaluation                                                                Investigations




         OIG Main Number                                                          OIG Hotline
         Inspector General . . . . . . . . . . . . . . . . . . 202.482.4661       Telephone . . . . . . . . . . . . . . . . . . . . . . . . . . . . 202.482.2495
         More Information                                                                                                                       or 800.424.5197
         Visit www.oig.doc.gov to learn more about our activities,                TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
         download reports and testimony, and subscribe to our                                                                                      or 800.854.8407
         RSS feed for website updates. E-mail website comments                    E-mail . . . . . . . . . . . . . . . . . . . . . . . . . . . . hotline@oig.doc.gov
         to oigweb@oig.doc.gov.




                             Photos courtesy U.S. Department of Commerce, U.S. Census Bureau, U.S. General Services Administration,
                                                       and National Aeronautics and Space Administration.
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page i




                                 Office of Inspector General

                               Semiannual Report to Congress



                                                       March 2011
OIG SAR March 2011.qxd       5/31/11       11:07 AM       Page iii




                                                                   CONTENTS

              From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


              Top Management Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                     1. Continuing to Enhance the Department’s Ability to Defend Its

                        Information Technology Systems and Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                     2. Effectively Managing the Development and Acquisition

                        of NOAA’s Environmental Satellite Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                     3. Managing Acquisition and Contract Operations More Effectively

                        to Obtain Quality Goods and Services at Reasonable Prices and on Schedule . . . . . . . . . . . . . . . . . . 4

                     4. Enhancing Accountability and Transparency of the American Recovery

                        and Reinvestment Act’s Key Technology and Construction Programs . . . . . . . . . . . . . . . . . . . . . . . . 5

                     5. Improving USPTO’s Patent Processing Times, Reducing Its Pendency

                        and Backlogs, and Mitigating Its Financial Vulnerabilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5

                     6. Effectively Balancing NOAA’s Goals of Protecting the Environment

                        and Supporting the Fishing Industry . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                     7. Protecting Against Cost Overruns and Schedule Slippages on the

                        Commerce Headquarters Renovation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                     8. Effectively Planning the 2020 Decennial Census . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


              Work in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


              American Recovery and Reinvestment Act Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


              Agency Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                     Department-Wide Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                     Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                     National Institute of Standards and Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 

                     National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                     National Telecommunications and Information Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

                     United States Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33


              Statistical Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36


              Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46


              Acronyms and Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48

OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page iv
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 1




                                          FROM THE

                                     INSPECTOR GENERAL 

              I am pleased to present the Department of                   Challenges we have identified for the Department.
              Commerce Office of Inspector General’s (OIG)                NOAA’s satellite program, USPTO’s reforms and
              Semiannual Report to Congress for the 6 months end­         modernization efforts, information technology secu­
              ing March 31, 2011.                                         rity, acquisitions, and Recovery Act spending will be
                                                                          particular areas of oversight for the balance of
              This report summarizes work we completed and ini­           FY 2011.
              tiated during this semiannual period on a number of
              critical departmental activities. Over the past             We look forward to working with the Department
              6 months, our office issued 20 audit and evaluation         and with Congress in the months ahead to meet the
              reports addressing programs overseen by the                 many challenges facing Commerce as it fulfills its
              Economics and Statistics Administration, National           complex mission. We thank the Secretary, senior offi­
              Oceanic and Atmospheric Administration (NOAA),              cials throughout the Department, and the members
              National Telecommunications and Information                 of Congress and their staffs for their support of our
              Administration, U.S. Patent and Trademark Office            work during this reporting period and for their recep­
              (USPTO), and the Department itself.                         tiveness to our recommendations for improving
                                                                          Commerce operations.
              Our investigative activities resulted in more than
              $6.2 million in fines and other financial recoveries.
              Most notably, a civil judgment against a National
              Institute of Standards and Technology grantee previ­
              ously convicted of intentionally misusing $500,000
              in grant funds yielded nearly $4.3 million in dam­
              ages, penalties, restitution, and forfeited property,
              plus 15 months’ imprisonment.

              Looking ahead, we will continue to prioritize our           Todd J. Zinser
              work consistent with the Top Management                     Inspector General




                                                                      1
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 2
OIG SAR March 2011.qxd   5/31/11    11:07 AM    Page 3




                    TOP MANAGEMENT CHALLENGES

                        FOR THE DEPARTMENT

              The Reports Consolidation Act of 2000 requires
              inspectors general to identify the top management
              challenges facing their departments. For FY 2011,
                                                                                     Top Management Challenges
              Commerce OIG identified eight challenges that
                                                                              1. Continuing to Enhance the Department’s
              require significant departmental attention. These
                                                                                 Ability to Defend Its Information Technology
              challenges reflect updates since their initial publica­
                                                                                 Systems and Information
              tion in December 2010.
                                                                              2. Effectively Managing the Development and
              1. Continuing to Enhance the                                       Acquisition of NOAA’s Environmental
                 Department’s Ability to Defend                                  Satellite Programs
                 Its Information Technology Systems
                 and Information                                              3. Managing Acquisition and Contract
                                                                                 Operations More Effectively to Obtain
              Our FY 2010 Federal Information Security                           Quality Goods and Services at Reasonable
              Management Act (FISMA) audit report identified                     Prices and on Schedule
              the following weaknesses Department-wide (includ­
              ing the United States Patent and Trademark Office               4. Enhancing Accountability and Transparency
              [USPTO]): (1) high-risk vulnerabilities in system                  of the American Recovery and Reinvestment
              components, (2) deficiencies in reporting and track­               Act’s Key Technology and Construction
              ing security weaknesses, (3) deficiencies in testing of            Programs
              contingency plans and providing alternate processing
                                                                              5. Improving USPTO’s Patent Processing Times,
              sites, and (4) persistent deficiencies in system securi­
                                                                                 Reducing Its Pendency and Backlogs, and
              ty plans and control assessments. In response to our
                                                                                 Mitigating Its Financial Vulnerabilities
              report, the Department’s Chief Information Officer
              provided an action plan for implementing all of our             6. Effectively Balancing NOAA’s Goals of
              audit recommendations, and the Department has                      Protecting the Environment and Supporting
              taken steps toward executing the plan.                             the Fishing Industry
              Our audit findings indicate that the Department’s               7. Protecting Against Cost Overruns and
              information technology (IT) security control weak­                 Schedule Slippages on the Commerce
              nesses result from an insufficient continuous moni­                Headquarters Renovation
              toring process. Consequently, our FY 2011 audits
              continue to focus on continuous monitoring and on               8. Effectively Planning the 2020 Decennial Census
              the adequacy of security controls implemented on the
              Department’s more than 300 IT systems. The
              Department’s IT security strategic plan identifies             The Department, however, has initiated a program to
              continuous monitoring at the enterprise level as a top         transition from the traditional certification and
              priority for improvement, but this plan is not sched­          accreditation process to the National Institute of
              uled for implementation until 2012 and is dependent            Standards and Technology’s (NIST’s) current risk
              upon adequate funding.                                         management framework (RMF) for authorizing the


                                                                         3
OIG SAR March 2011.qxd    5/31/11      11:07 AM     Page 4




              Top Management Challenges for the Department                                   March 2011—Semiannual Report to Congress



              operation of information systems, which emphasizes                    independent reviewers in 2007, NOAA made adjust­
              continuous monitoring of security controls.1 The                      ments to the GOES-R program’s costs, schedule, and
              Department has identified necessary changes to its IT                 technical requirements. Since then, GOES-R has
              security policies to align them with the RMF-based                    remained within budget and on time.
              process, and plans to update these policies during
              FY 2011.                                                              As highlighted by recent independent reviews, both
                                                                                    satellite systems will continue to require close over­
              USPTO has taken steps to bolster the overall securi­                  sight to minimize further disruption to the programs
              ty posture of its information systems. In January                     and to prevent any gaps in satellite coverage. Such
              2011, USPTO put into operation a command center,                      gaps could compromise the United States’ ability to
              which currently provides monitoring coverage for                      forecast weather and monitor climate, which would
              about 25 percent of USPTO’s network components,                       have serious consequences for the safety and security
              with the ultimate goal of monitoring all network                      of the nation. For FY 2011, our planned work
              components and applications.                                          includes audits of select development activities for
                                                                                    JPSS and GOES-R. We will assess the adequacy of
              2. Effectively Managing the Development                               development and program management activities
                 and Acquisition of NOAA’s                                          supporting launch readiness and data continuity for
                 Environmental Satellite Programs                                   these critical satellite programs.

              The National Oceanic and Atmospheric                                  3. Managing Acquisition and Contract
              Administration (NOAA) is modernizing its environ­                        Operations More Effectively to Obtain
              mental monitoring capabilities, in part by spending                      Quality Goods and Services at
              nearly $20 billion on two critical satellite systems: the                Reasonable Prices and on Schedule
              Joint Polar Satellite System (JPSS) and the
              Geostationary Operational Environmental Satellite-R                   With Commerce spending approximately $3 billion
              Series (GOES-R). Previously, the JPSS predecessor                     of its budget every year through contracts, effective
              program—the National Polar-orbiting Operational                       acquisition management is fundamental to the
              Environmental Satellite System (NPOESS)—and                           Department’s ability to accomplish its mission.
              GOES-R had a history of cost overruns, schedule                       However, we continue to find weaknesses in the
              delays, and reduced performance capabilities. More                    Department’s contract planning, administration, and
              recently, the transition from NPOESS to JPSS involves                 oversight. In addition, the Department and its oper­
              significant challenges, including moving instruments                  ating units must develop effective processes for per­
              from the Department of Air Force’s contract with                      forming these functions for major system
              Northrop Grumman to NASA, that must be effective­                     acquisitions. Commerce must also strengthen its sus­
              ly managed to avoid cost increases and delays in launch               pension and debarment program to effectively safe­
              schedules. Also, reduced funding levels in FY 2010 and                guard against risks (such as fraud and contractor poor
              FY 2011, coupled with potential cuts to program                       performance), improve award-fee contracting
              budgets in FY 2012 and beyond, are adding significant                 processes to meet acquisition outcomes, and do more
              risk of an extended gap in the continuity of environ­                 to ensure the adequate size and skills of its acquisition
              mental data obtained from the afternoon polar orbit.                  workforce, especially given its need to oversee billions
              The transition challenges and funding shortfalls expe­                of dollars in American Recovery and Reinvestment
              rienced thus far will almost certainly result in some gap             Act of 2009 funds. Additionally, Commerce’s execu­
              in NOAA’s polar satellite coverage. The GOES-R pro­                   tive leadership needs to ensure the Office of
              gram has had its own challenges; as a result of signifi­              Acquisition Management has the authority needed to
              cant cost growth and recommendations by                               perform effectively. At the direction of the Secretary,
                                                                                    last year the Department conducted an acquisition
              1
                National Institute of Standards and Technology Special Pub­         improvement study that identified opportunities to
              lication 800-37, Revision 1, Guide for Applying the Risk              strategically strengthen and improve the quality of its
              Management Framework to Federal Information Systems: A Security       acquisition functions. However, acquisition has many
              Life Cycle Approach, February 2010.


                                                                                4
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 5




              March 2011—Semiannual Report to Congress                            Top Management Challenges for the Department



              inherent risks and will require continued attention          NIST, NOAA, and EDA also received $1.5 billion in
              and improvement efforts. As part of our FY 2011              Recovery Act funds for contracts and grants, including
              work, we are assessing the adequacy of the strategic         $1 billion for construction and construction-related
              acquisition workforce plan Commerce completed in             projects. To complete these projects successfully, the
              March 2010 as required by the Office of                      agencies will need to overcome the inherent risks asso­
              Management and Budget (OMB). We are also                     ciated with such projects. In FY 2011 we are focusing
              reviewing the Department’s progress on and imple­            on how they oversee the contracts and grants they have
              mentation of an OMB-required plan to reduce                  awarded to ensure that the technology and construc­
              spending and increase savings on acquisitions.               tion projects are managed effectively.

              4. Enhancing Accountability and                              5. Improving USPTO’s Patent Processing
                 Transparency of the American Recovery                        Times, Reducing Its Pendency and
                 and Reinvestment Act Program’s Key                           Backlogs, and Mitigating Its Financial
                 Technology and Construction Programs                         Vulnerabilities
              The Recovery Act is an unprecedented effort to pro­          USPTO faces immense and complex challenges in
              mote economic activity, invest in long-term growth,          addressing patent pendency and application backlogs
              and implement a level of transparency and accounta­          while improving patent quality and building a highly
              bility that will allow the public to see how their tax       trained and stable workforce. From FY 2000 to
              dollars are being spent. The Department of                   FY 2010, patent pendency increased from 25 months
              Commerce received $7.9 billion in Recovery Act               to over 35 months, and the backlog of unexamined
              funds; of that amount, approximately $6 billion was          applications grew from approximately 308,000 to
              obligated in the form of grants or contracts for key         726,000. These large numbers of applications and
              technology and construction programs in four of the          long waiting periods for patent review inhibit innova­
              Department’s operating units: the Economic                   tion and stifle economic competitiveness, ultimately
              Development Administration (EDA), NIST, NOAA,                putting at risk the United States’ position as a world
              and National Telecommunications and Information              leader in innovation.
              Administration (NTIA). As of March 31, 2011,
              these operating units have spent about $1.1 billion          As of March 2011, USPTO’s backlog was around
              (or 20 percent of their obligated funds), leaving sig­       708,000 patent applications, and pendency was
              nificant spending yet to be completed. Effective man­        about 34 months. To further decrease the patent
              agement by these units is critical to completing these       application backlog and processing times, USPTO
              projects on schedule and within budget, and to mak­          must continue its current efforts to modernize its
              ing certain the public receives the intended benefits        existing patent IT infrastructure and systems, which
              from the Recovery Act.                                       are outdated and unstable. USPTO must also recruit
                                                                           and retain a highly skilled patent examiner work­
              The largest and riskiest program funded by the               force. Finally, USPTO must ensure that its initiatives
              Recovery Act at the Department of Commerce is                for a more efficient review process succeed in improv­
              NTIA’s Broadband Technology Opportunities                    ing patent quality, and that patent fee collections pro­
              Program (BTOP), which awarded 232 grants totaling            vide sufficient resources to support USPTO’s
              $3.9 billion for broadband Internet access across the        operations. USPTO has established a goal of reducing
              nation. As of March 31, 2011, only about 7 percent           the patent backlog to fewer than 353,000 and pen­
              of BTOP’s obligated funds had been disbursed. Over           dency to within 10 months by 2014. Our FY 2011
              the next 2 years, spending by BTOP grant recipients          work focuses on determining USPTO’s readiness to
              will increase substantially—which will in turn signif­       successfully manage the modernization of patent IT
              icantly increase the potential for fraud, waste, and         systems; assessing the implementation status of the
              abuse. Monitoring the largest and most complex               patent initiatives outlined in the USPTO 2010–2015
              grant program NTIA has ever overseen will be an              Strategic Plan; and reviewing USPTO’s largest tele­
              ongoing challenge.                                           work program, the patent hoteling program.


                                                                       5
OIG SAR March 2011.qxd   5/31/11    11:07 AM    Page 6




              Top Management Challenges for the Department                             March 2011—Semiannual Report to Congress



              6. Effectively Balancing NOAA’s Goals of                       cost of $958 million. The General Services
                 Protecting the Environment and                              Administration (GSA) owns the building and is man­
                 Supporting the Fishing Industry                             aging the renovation; to its credit, the Department is
                                                                             also taking an active management role. It should con­
              The United States has the largest marine territory of          tinue to work closely with GSA as an advocate for the
              any nation in the world, and NOAA is charged with              operating units housed at HCHB since the project
              protecting, restoring, and managing the use of living          has the potential to disrupt Commerce operations
              marine, coastal, and ocean resources. In the years             and adversely affect its workforce. OIG will continue
              ahead, NOAA faces difficult challenges in promoting            our ongoing review of the construction activities and
              the health of these resources while ensuring the nation        the decisions critical to the renovation’s success. We
              reaps the vital economic benefits derived from them,           are also overseeing how effectively Commerce is
              especially in the areas of fishery enforcement and envi­       working with GSA, and we will monitor the project
              ronmental restoration. NOAA is at a critical juncture          cost schedules, performance, and any health or safety
              in reforming its Office for Law Enforcement and                issues that may emerge as the renovation continues.
              Office of General Counsel for Enforcement and
              Litigation. The Secretary and NOAA have taken steps            8. Effectively Planning the 2020 Decennial
              to improve the enforcement program, but continued
                                                                             The apportioning of congressional representation
              positive action will be necessary to strengthen it.
                                                                             and redistricting, as well as the annual distribution of
              The April 20, 2010, Deepwater Horizon oil spill in             more than $400 billion of government funding,
              the Gulf of Mexico highlights the dual nature of               depends on decennial census data. The 2010 Census
              NOAA’s mission to promote environmental health                 was an immense undertaking that cost approximate­
              while maintaining the commercial viability of the              ly $13 billion and involved the contributions of hun­
              nation’s marine resources. As of February 2011,                dreds of thousands of temporary employees to
              NOAA had dedicated some $175 million to spill                  accurately count over 308 million people living in the
              response support and damage assessment. Our                    United States.
              December 2010 survey of NOAA’s process for track­              Considering the current trends in population and cost
              ing the costs associated with its oil spill activities         growth, the 2020 Census could be even more expen­
              found that NOAA needs to ensure that costs are                 sive. Unless major changes are made in how the
              properly recorded, documented, and reflect the full            decennial census is conducted, the total price of the
              cost of oil spill, response, damage assessment, and            2020 Census could reach $22 billion to $30 billion,
              restoration activities. To help the Gulf—and the peo­          according to estimates by the Census Bureau and
              ple who earn their living from it—recover from the             Government Accountability Office, respectively. By
              spill, NOAA must continue to devote resources to               either estimate, such cost growth is simply unsustain­
              monitoring and restoration for years to come.                  able. Given mounting federal deficits and constrained
              Federal, state, and local communities will continue to         federal budgets, the Census Bureau must apply lessons
              rely on NOAA to provide long-term monitoring and               learned from the 2010 process to develop an innova­
              accurate data so responders can react to the oil and its       tive, flexible, cost-effective, and transparent approach
              effects on our ecosystem.                                      to the 2020 Census. To be effective, this approach
                                                                             needs to leverage existing surveys, field operations,
              7. Protecting Against Cost Overruns and                        and data assets, as well as to develop, test, and improve
                 Schedule Slippages for the Commerce                         technology continuously throughout the coming
                 Headquarters Renovation                                     decade. This decade’s early years are critical for setting
                                                                             the course for how well the 2020 count is performed
              For the first time in its 79-year history, the Herbert         and how much it will ultimately cost.
              C. Hoover Building (HCHB)—Commerce’s
              Washington, D.C., headquarters—is undergoing a                 Throughout the decade, we will continue to follow
              comprehensive renovation. The project, currently               the Census Bureau’s 2020 decennial planning to
              scheduled for completion by 2021, has a budgeted               ensure this vitally important, constitutionally mandat­


                                                                         6
OIG SAR March 2011.qxd      5/31/11   11:07 AM    Page 7




              March 2011—Semiannual Report to Congress	                      Top Management Challenges for the Department



              ed operation runs smoothly and cost-effectively.
              Currently, the bureau is in the midst of defining its
              research and testing strategy that will support the
              design, methods, processes, and operations of the next
              decennial census. As we monitor the bureau’s progress,
              we will also examine how well it addresses the six chal­
              lenges we identified during our decade of work:

              ■	   Revamp cost estimation and budget processes to
                   increase accuracy, flexibility, and transparency;

              ■    Use the Internet and administrative records to con­
                   tain costs and improve accuracy;

              ■    Implement a more effective decennial test program
                   using the American Community Survey as a test
                   environment;

              ■    Effectively automate field data collection;

              ■	   Avoid massive end-of-decade field operations
                   through continuous updating of address lists and
                   maps; and

              ■	   Implement improved project planning and man­
                   agement techniques early in the decade.

              We are also actively monitoring congressional
              progress toward establishing a Census Bureau direc­
              tor position that spans administrations.




                                                                         7
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 8
OIG SAR March 2011.qxd   5/31/11    11:07 AM    Page 9




                                        WORK IN PROGRESS

              The following OIG audits and evaluations were initi­           NIST’s Oversight of Recovery Act
              ated or underway during this reporting period:                 Construction Contracts
                                                                             Audit Recovery Act contracts awarded for NIST’s
                                                                             own facility construction. Determine whether NIST
              American Recovery and                                          has contracting practices in place that comply with
              Reinvestment Act                                               laws and regulations, including Recovery Act require­
                                                                             ments, and policies and procedures to effectively
              Census Bureau’s Partnership Program                            monitor these contracts. Also determine whether
              and Recovery Act                                               acquisition staff is communicating project issues with
              Review partnership program activities associated with          NIST management.
              Recovery Act spending during the 2010 decennial.
              Assess Census Bureau operation managers’ satisfac­             NTIA’s Monitoring of BTOP
              tion with the partnership program, communication               Grant Awards
              between partnership staff and operation managers,              Review the effectiveness of NTIA’s monitoring
              and the effectiveness of partnership assistants.               processes for BTOP, including the reasonableness of
                                                                             monitoring levels, activities, and tools, as well as the
              Recovery Act Recipient Reporting                               processes to adjust the monitoring levels of specific
              Determine whether Commerce has implemented suf­                recipients if necessary.
              ficient internal controls to ensure that data for recip­
              ients of Recovery Act funds are reported completely,
              accurately, and in a timely manner, and that any               Department-Wide
              material omissions or significant errors are identified
              and corrected.                                                 Web Application Security
                                                                             Determine whether the Department’s web-based
              Inquiry Related to BTOP Award                                  applications, which provide various important servic­
              Examine the procedures NTIA followed in its review             es to the public, are properly secured to minimize the
              of a complaint lodged by municipal authorities                 risk of cyber attacks.
              against a BTOP award made to build a public safety
              broadband network and a public access wireless                 Information Security
              broadband network in the San Francisco Bay Area.               Audit the Department’s information security pro­
                                                                             gram and practices, determining whether implement­
              NIST’s Oversight of Recovery Act                               ed controls adequately protect the Department’s
              Construction Grants                                            systems and information and whether continuous
              Audit Recovery Act grants awarded by NIST for con­             monitoring is keeping authorizing officials sufficient­
              struction of research science buildings. Assess NIST’s         ly informed about the operational status and effec­
              oversight of the awards, including the policies and            tiveness of security controls.
              procedures it has developed; its personnel and moni­
              toring systems; monitoring activities it has imple­            FY 2011 Financial Statements Audits
              mented; and whether construction projects are being            Determine whether the financial statements for the
              built according to the original proposals.                     Department and USPTO are fairly stated in accor­
                                                                             dance with generally accepted accounting principles.
                                                                             These audits are performed by an independent pub­
                                                                             lic accounting firm under OIG oversight.


                                                                         9
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 10




              Work in Progress                                                      March 2011—Semiannual Report to Congress



              Implementation of Acquisition                                National Oceanic and
              Savings Initiatives                                          Atmospheric Administration
              Audit the Department’s implementation of the key
              initiatives created by OMB to control contract               Environmental Satellite Programs
              spending and reduce risk. Assess the validity of any         Audit the adequacy of NOAA’s JPSS development
              reported savings or cost reductions.                         activities (e.g., ground system software development,
                                                                           fixes, and testing) intended to maintain continuity of
              Acquisition Workforce                                        climate and weather forecast data obtained from
              Assess the adequacy of Commerce’s plan for deter­            polar orbit. Determine the completeness of technical
              mining its acquisition workforce needs and its               approaches used in developing and testing the flight
              progress in addressing those needs. Examine the              and ground project segments. Assess the impacts of
              Department’s methods for determining the necessary           development modifications and project risks to the
              skills and competencies for its workforce; addressing        project’s cost, schedule, and technical performance.
              gaps in hiring and developing its workforce; and             Determine the adequacy of NOAA’s preparations for
              identifying programs, policies, and practices to             post-launch data production.
              ensure a sufficient workforce.
                                                                           Pacific States Marine Fisheries
                                                                           Commission
              Economics and Statistics                                     Audit two NOAA cooperative agreements awarded to
              Administration                                               the Commission to determine whether costs were
                                                                           allowable; objectives were achieved; and the
              2020 Decennial Census Planning                               Commission’s accounting, procurement, and project
              Monitor early 2020 planning to identify methods for          management practices and controls complied with
              improving the design of the 2020 Census, focusing            award requirements. In addition, audit the
              on the ways in which the bureau’s evaluation of the          Commission’s indirect cost rates and plans for a peri­
              2010 Census will inform 2020 design.                         od of 7 years.
              2010 Decennial Capstone Report                               Review of NOAA’s Approach in Defining
              (includes OIG’s Final Quarterly Report                       and Reporting on Its Asset Forfeiture
              on the 2010 Census)                                          Fund (AFF)
              Analyze and report on the success of the 2010 Census         Review NOAA’s efforts to address issues related to the
              with respect to cost, schedule, and risk, as mandated        AFF. Determine whether NOAA has properly identi­
              by the explanatory statement to the Supplemental             fied the assets that make up the AFF, defined allow­
              Appropriations Act of 2008 (P.L. 110-252). Discuss           able uses for these assets, and developed controls for
              strategies for planning a successful 2020 census,            collecting and distributing them.
              building on lessons learned from 2010.
                                                                           Fisheries Enforcement Activities
              Review of the Census Bureau’s Mapping                        Focus on NOAA’s progress in implementing the cor­
              and Address Database                                         rective actions it planned in response to our earlier
              Conduct a review of Census’s procedures for updat­           work: improving the accountability of its Office of
              ing its master map and address database, identify            Law Enforcement and General Counsel Office for
              actions that may have introduced data errors,                Enforcement and Litigation, conducting a workforce
              and assess the bureau’s progress toward achieving            analysis, establishing a strategy for reaching out to
              performance objectives for its database enhance­             external stakeholders, and improving management
              ment program.                                                information systems.




                                                                      10
OIG SAR March 2011.qxd   5/31/11   11:07 AM    Page 11




              March 2011—Semiannual Report to Congress                                                          Work in Progress



              National Telecommunications and                                Patent End-to-End (PE2E) Project
              Information Administration                                     Assess USPTO’s readiness to successfully manage the
                                                                             PE2E system acquisition project by determining the
              Third Annual Audit of the Public Safety                        adequacy of its acquisition process and methodolo­
              Interoperable Communications (PSIC)                            gies, as well as the project’s governance.
              Grant Program
                                                                             Patent Hoteling Program (PHP)
              Conduct third annual audit of the PSIC grant pro­
                                                                             Audit the PHP, USPTO’s largest telework program,
              gram. Assess NTIA’s administration of the program and
                                                                             to determine the extent to which USPTO’s policies
              report results to Congress, as required by section 2201
                                                                             and their implementation provide adequate manage­
              of the Implementing Recommendations of the 9/11
                                                                             ment controls for the program, how the productivity
              Commission Act of 2007 (Title XXII, P.L. 110-53).
                                                                             of the program’s participants is measured, and how
                                                                             successfully USPTO has contained costs and
              U.S. Patent and Trademark Office                               achieved its stated savings through this program.

              Initiatives to Improve Patent Timeliness
              and Quality
              Assess the implementation status of USPTO’s multi­
              ple plans and initiatives to address patent quality
              and timeliness.




                                                                        11
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 12
OIG SAR March 2011.qxd      5/31/11       11:07 AM        Page 13




                        AMERICAN RECOVERY AND

                      REINVESTMENT ACT OVERSIGHT


              T
                        he Recovery Act, signed into law by President Barack Obama on February 17, 2009, has at least three
                        immediate goals: create new jobs and save existing ones; spur economic activity and invest in long-term
                        growth; and foster unprecedented levels of transparency and accountability. To ensure that accounta­
              bility requirements are being met, the inspectors general of 28 federal agencies distributing Recovery funds con­
              tinually review their agencies’ management of these funds.

              Five Department of Commerce operating units—the Census Bureau, EDA, NIST, NOAA, and NTIA—and
              OIG received $7.9 billion under the act, with $1.1 billion ultimately rescinded or transferred to other agencies.
              As of March 31, 2011, the Department had obligated approximately $6.8 billion and spent approximately
              $2.1 billion. OIG received $16 million for proactive oversight of the Department’s Recovery Act programs and
              activities, including the operating units’ implementation of the act’s performance measurement requirements.


                         Commerce Operating Units’ Recovery Act Spending as of March 31, 2011 (in millions)

                                                    Census                                                                                      $990M
                                               2010 Census                                                                                      $1B


                                                   EDA                $81M
                Economic Development Assistance Program                      $150M
                                                                                                                              Total Disbursements
                                                                                                                              Total Obligations
                                                    NOAA                      $165M
                         Operations, Research, and Facilities                      $231M


                                                   NOAA               $77M
                Procurement, Acquisition, and Construction                           $249M


                                                       NIST            $94M
               Scientific and Technical Research and Services                        $238M


                                                     NIST             $77M
                          Construction of Research Facilities                                  $360M


                                                    NTIA                                      $334M
                         Digital TV Converter Box Program                                     $334M


                                                   NTIA                                      $320M                                                  $4.2B
              Broadband Technology Opportunities Program
                                                                $0   $100     $200    $300     $400    $500   $600   $700   $800    $900   $1,000      $4,000

              Not reflected in the chart are DTV converter box rescissions of $240 million, a BTOP rescission of $302 million, and $536 million in

              other transfers for a total of $1.1 billion. 

              Visit www.oig.doc.gov/recovery/ for more information about OIG Recovery Act activities.




                                                                                      13
OIG SAR March 2011.qxd     5/31/11    11:07 AM   Page 14




              American Recovery and Reinvestment Act Oversight                            March 2011—Semiannual Report to Congress



              Broadband Program Faces                                              ing to provide oversight of the program through
                                                                                   FY 2011. However, it is unclear what level of fund­
              Uncertain Funding, and
                                                                                   ing NTIA will receive for oversight in FY 2012.
              NTIA Needs to Strengthen Its                                         A lack of funding beyond that date would affect
              Post-Award Operations                                                NTIA’s oversight efforts.
              (OIG-11-005-A)
                                                                              ■    NTIA’s post-award monitoring and oversight prac­
              As part of our continuing oversight of the BTOP                      tices need to be strengthened in several ways. First,
              grant award process, we examined NTIA’s efforts to                   some agreements with other Commerce agencies
              develop and implement effective policies and proce­                  are unclear and have not been carefully managed.
              dures, systems, and post-award oversight of the two                  In addition, there is a knowledge gap between the
              rounds (April and September 2010) of broadband                       staff of the contractor that designed BTOP’s soft­
              grant awards.                                                        ware systems and the NTIA staff who must main­
                                                                                   tain the systems. NTIA also does not have a robust
                                                                                   means for tracking employee training and develop­
                                                                                   ment. While NTIA has created new manuals and
                         The Recovery Act and Broadband
                                                                                   guidance to help employees and grantees under­
                   The Recovery Act gave $4.7 billion to NTIA to                   stand BTOP, several of the manuals lack important
                   establish BTOP, a competitive grant program                     details about policies and procedures. Finally, some
                   intended to provide funds for deploying broad­                  aspects of award monitoring are not being complet­
                   band infrastructure in the United States,                       ed promptly or efficiently.
                   enhance broadband capacity at public computer
                                                                              We made several recommendations to NTIA to
                   centers, improve access to broadband services for
                                                                              improve internal controls, promote transparency, and
                   public safety agencies, promote sustainable
                                                                              increase efficiency. NTIA’s response to our draft
                   broadband adoption projects, and develop an
                                                                              report indicated it is taking many of our recommen­
                   interactive map showing broadband capabilities
                                                                              dations into consideration. Based on its response, our
                   and availability.
                                                                              final recommendations included:

                                                                              ■	   managing future funding constraints for BTOP by
              By September 30, 2010, NTIA had made almost                          developing alternative approaches to monitoring
              $4 billion in awards to over 230 recipients, making it               and oversight, and revising manuals and documen­
              the largest grant program that NTIA has managed to                   tation accordingly; and
              date. With the announcement of the last awards,                 ■    ensuring that agreements with other agencies, man­
              NTIA’s focus shifted to monitoring this diverse port­
                                                                                   uals and guidance, training and development, and
              folio of grants, which were awarded to a wide variety
                                                                                   monitoring procedures are clearly documented and
              of recipients, including public entities, for-profits,
                                                                                   fully adhered to.
              nonprofits, cooperative associations, and tribal enti­
              ties. While NTIA has been proactive in its establish­
                                                                              Commerce Needs to Strengthen
              ment of a post-award oversight program, we did find
              the following causes for concern:                               Its Improper Payment Practices
                                                                              and Reporting (OIG-11-021-A)
              ■	   NTIA has developed many new processes to assist
                   BTOP’s program office and grant recipients with            For our review of the Department’s compliance with
                   post-award activities. When this report was issued         OMB guidance for preventing and detecting grant
                   in November 2010, NTIA had not received any                fraud, waste, and abuse, we focused on the
                   federal funding, which would have hindered its             Department’s practices for reporting improper pay­
                   efforts to provide effective long-term oversight of        ments. We sampled four operating units—EDA,
                   grants. NTIA has since received its requested fund-        NIST, NOAA, and NTIA—that received funding



                                                                         14
OIG SAR March 2011.qxd      5/31/11    11:07 AM    Page 15




              March 2011—Semiannual Report to Congress                                    American Recovery and Reinvestment Act Oversight



              and awarded grants through the Recovery Act. We                     ■	   All of the bureaus we reviewed were in compliance
              found that the units were generally in compliance                        with OMB requirements to link their websites to
              with OMB guidance, but that several improvements                         the OIG website to report fraud, waste, and abuse.
              should be made. We concluded that
                                                                                  While we focused our review on the practices of these
              ■	   Commerce did not have a comprehensive policy                   four bureaus, we addressed our recommendations to
                   addressing all categories of improper payments; as a           the Department as a whole since improper payments
                   result, the four units did not have practices in place         reporting is required for all programs and bureaus.
                   to accurately report and recover improper pay­                 We recommended that the Department’s Assistant
                   ments. While the previous OMB guidance lacked                  Secretary for Administration/Chief Financial Officer
                   clarity, recent draft guidance clearly identifies addi­        work with bureaus and programs to
                   tional categories of payments.
                                                                                  ■	   provide additional improper payment guidance and
                                                                                       training to Commerce operating units to identify
                                                                                       the categories, including grants, of improper pay­
                        Improper Payments Information Act                              ments that are required for improper payment
                             of 2002 (P.L. 107-300)                                    reporting, and ensure that all categories are accu­
                                                                                       rately and completely reported;
                   The Improper Payments Information Act of 2002
                   was enacted to increase public trust in govern­                ■	   include grant payments in future recovery audits;
                   ment spending. The act requires the head of each                    and
                   agency to review its programs, which now include
                   Recovery Act grants and contracts, for significant             ■	   expand internal control and program risk assess­
                   improper payments, and to report these payments                     ments to include specific fraud scenarios so that
                   to Congress. The Improper Payments                                  increased program and financial management
                   Elimination and Recovery Act of 2010 (P.L. 111­                     attention can be focused on the likeliest risks for
                   204) amended the Improper Payments                                  fraud, waste, and abuse.
                   Information Act and broadened the criteria for
                   identifying and recovering improper payments.                  Technical Equipment Company
                                                                                  Suspended from Federal
                                                                                  Contracting
              ■	   Commerce did not elect to include grants in its
                   improper payments reporting or annual recovery                 Based on a lead from the Recovery Accountability
                   audits. By not including grants, the Department                and Transparency Board and with support from the
                   missed an opportunity to find and recover erro­                Bureau of Industry and Security, OIG investigated a
                   neous payments.                                                company that was awarded federal contracts, includ­
                                                                                  ing three NIST contracts funded by the Recovery
              ■    NIST, NOAA, and NTIA completed program risk                    Act, under false pretenses. In March 2008 the com­
                   assessments, but the assessments did not adequate­             pany pled guilty to making a false certification or
                   ly measure the risk of fraud; EDA identified pro­              writing in order to export equipment for use in
                   gram risks, but did not determine a risk rating,               India’s nuclear program in violation of the applicable
                   which is an integral part of a risk assessment and is          regulation. OIG’s investigation revealed that the
                   required by OMB guidance.                                      company subsequently certified in official documents
                                                                                  filed with federal contracting offices that it had not,
              ■	   All of the bureaus we reviewed had completed                   within a 3-year period preceding the award of the
                   internal controls assessments; however, these assess­          contracts, been convicted of a crime or had a civil
                   ments were not included in the program risk assess­            judgment rendered against it. During the period cov­
                   ments. The assessments also did not include                    ered by these certifications, the company received
                   specific fraud risk scenarios as a best practice.              276 federal contracts from 16 different agencies total­



                                                                             15
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 16




              American Recovery and Reinvestment Act Oversight                    March 2011—Semiannual Report to Congress



              ing $19,536,660. OIG worked with the U.S. Air              As a result of BTOP’s unique and diverse nature, the
              Force to suspend the firm from receiving new con­          Inspector General testified that NTIA will need to
              tracts from the federal government. Imposed in             track recipients’ compliance with grant terms and
              March 2011, the indefinite suspension covered the          conditions; review project performance information
              company and three company officials.                       and other quarterly reports; evaluate how well recipi­
                                                                         ents monitor award subrecipients; ensure that recipi­
              Congressional Testimony                                    ents remain on track to deliver the broadband
                                                                         capabilities to which they have committed; and close­
              On February 10, 2011, the Inspector General testi­         ly observe how awardees manage the often complex
              fied before a U.S. House Energy and Commerce               process of drawing down federal funds.
              Subcommittee on the progress and status of the
              BTOP program and OIG’s oversight efforts. Noting           The Inspector General discussed how OIG’s current
              that BTOP represents the largest and most complex          proactive oversight efforts in the areas of outreach
              grant program NTIA has ever overseen, he said that         and program-wide issues will transition to a more
              a total of 232 awards worth approximately $3.9 bil­        strategic approach, including reviews of program-spe­
              lion had been granted for developing information           cific issues and reviews stemming from complaints
              technology infrastructure development; establishing        and identified risks. He predicted that the potential
              or upgrading public computer centers; and promot­          for fraud, waste, and abuse will increase substantially
              ing sustainable broadband adoption.                        over the next 5 years as spending by BTOP grant
                                                                         recipients rises. In addition, he said uncertainty
                                                                         regarding NTIA oversight funding raises significant
                “BTOP’s mission is as ambitious as its imple­            concerns for the Department about the adequacy of
                mentation has proven complex. For the                    future BTOP oversight.
                Department to continue effective oversight,
                OIG and NTIA will require Congress as a                  His statement is available at www.oig.doc.gov.
                steadfast, supporting partner.”

                IG testimony before a U.S. House Energy and
                Commerce Subcommittee, February 10, 2011




                                                                    16
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 17




                                        DEPARTMENT-WIDE

                                          MANAGEMENT


              T
                      he United States Department of Commerce creates the conditions for economic growth and oppor­
                      tunity by promoting innovation, entrepreneurship, competitiveness, and stewardship. The
                      Department has three stated strategic goals:

                      Goal 1: Provide the information and tools to maximize U.S. competitiveness.

                      Goal 2: Foster science and technological leadership by protecting intellectual property, enhancing
                      technical standards, and advancing measurement science.

                      Goal 3: Observe, protect, and manage Earth’s resources to promote environmental stewardship.

              The Department has also established a Management Integration Goal that is equally important to all operat­
              ing units: Achieve organizational and management excellence.


              Commerce Should Strengthen                                    The objective of our audit was to determine whether
                                                                            the Department and operating units were operating
              Accountability and Internal
                                                                            motor pool vehicles in compliance with regulations.
              Controls in Its Motor Pool                                    Because documentation supporting vehicle use and
              Operations (OIG-11-004-A)                                     fleet credit card transactions was inconsistent or non­
                                                                            existent, we were unable to assess the Department’s
              During FY 2009, the Department owned about 700                compliance with applicable regulations, and we could
              vehicles, leased about 100 commercial vehicles, and           not determine whether government motor vehicles
              leased over 1,400 GSA vehicles at a total cost of             and fleet credit cards were used only for allowable
              approximately $9.6 million. Vehicles that Commerce            purposes. This resulted from inadequate policies and
              owns or commercially leases are assigned a JPMorgan           procedures and the lack of a centralized fleet manage­
              Chase fleet credit card that is used to purchase fuel         ment system. We found that the Department does
              and pay vehicle maintenance and repair costs. The             not provide adequate oversight of motor pool vehicle
              Department is responsible for monitoring transac­             inventory, activity, or cost. Further, the Department
              tions posted to the card and pays these costs directly        has not developed or implemented internal controls
              to the card issuer. For GSA vehicles, the Department          over motor pool operations. As a result, significant
              pays the agency a monthly lease fee plus mileage              irreconcilable differences were found between
              costs. These vehicles are assigned a Wright Express           Commerce records and those of JPMorgan Chase
              fleet credit card for fuel and minor non-fuel purchas­        and Wright Express.
              es. GSA is responsible for monitoring these transac­
              tions, which are centrally billed to GSA.                     We recommended that the Department (1) develop a
                                                                            centralized fleet management information system to


                                                                       17
OIG SAR March 2011.qxd    5/31/11   11:07 AM    Page 18




              Department-Wide Management                                                March 2011—Semiannual Report to Congress



                                                                               This year we assessed security controls of 18 systems
               Unreconciled Differences Between Commerce,                      from six different operating units. Our review focused
               JPMorgan Chase, and Wright Express Records                      on Department-wide issues that require policy
                                                                               improvements and increased management attention.
               ■   733 JPMorgan Chase fleet credit cards (with
                   transactions totaling over $1 million) could                We found that the Department’s information securi­
                   not be matched with a vehicle.                              ty program and practices are not adequately securing
               ■   339 bureau vehicles could not be matched with               its systems, and we are concerned that the likelihood
                   a JPMorgan fleet credit card.                               and severity of security breaches are considerably
                                                                               greater than what is currently perceived by manage­
               ■   381 Wright Express credit cards could not be                ment. We recommended that the Department revise
                   matched with a vehicle.                                     its information security policy by providing specific
               ■   40 GSA-leased vehicles could not be matched                 implementation guidance that will ensure better and
                   with a Wright Express credit card.                          more consistent practices across the Department.
                                                                               Further, increased management attention is required
               ■   89 vehicles reported on the Federal Automotive              to ensure that the deficiencies identified are rectified
                   Statistical Tool report were not included on                Department-wide.
                   bureau inventory listings.
               ■   52 vehicles were found to have multiple
                   JPMorgan fleet credit cards.
                                                                                          Federal Information Security
                                                                                           Management Act of 2002
                                                                                            (Title III, P.L. 107-347)
              oversee the use of motor pool vehicles and costs asso­
              ciated with each; (2) implement available JPMorgan                The Federal Information Security Management
              Chase fraud training and monitoring tools;                        Act of 2002 (FISMA) requires federal agencies to
              (3) update policies and procedures to ensure that cred­           identify and provide security protection of infor­
              it cards are used appropriately, operating units maintain         mation collected or maintained by them or on
              adequate documentation, authorization for home-to­                their behalf. Inspectors general are required to
              work transportation is justified and documented, pre­             annually evaluate agencies’ information security
              mium-grade fuel is used only when required in the                 programs and practices. These evaluations must
              particular vehicle, accurate odometer readings are                include testing of a representative subset of sys­
              recorded when fuel is purchased, and fleet managers               tems and an assessment, based on that testing, of
              and employees receive formal training on the use of               the entity’s compliance with FISMA and applica­
              government vehicles; and (4) revise its charge card man­          ble requirements.
              agement plan to comply with OMB regulations.

              Federal Information Security
              Management Act Audit Identified
              Significant Issues Requiring
              Management Attention
              (OIG-11-012-A)

              The Department and its operating units use over 300
              IT systems. Security weaknesses have been a long-
              standing problem, particularly with respect to plan­
              ning, configuration settings, and control assessments.




                                                                          18
OIG SAR March 2011.qxd   5/31/11    11:07 AM    Page 19




              March 2011—Semiannual Report to Congress                                                Department-Wide Management



              FY 2010 Consolidated Financial                                   result of a joint investigation involving the U.S.
                                                                               Department of Justice and investigative units from
              Statements Audits (FSA-11-010)
                                                                               nine federal departments and agencies.
              Independent auditor KPMG LLP found that the
              Department’s consolidated financial statements are               Congressional Testimony
              presented fairly in all material respects and in con­
              formity with U.S. generally accepted accounting                  On February 9, 2011, the Inspector General testified
              principles. KPMG found no instances of reportable                on the top management challenges facing the
              noncompliance with applicable laws, regulations,                 Department as part of a U.S. House Appropri­
              contracts, and grant agreements; and no instances in             ations Subcommittee’s consideration of FY 2012
              which the Department’s financial management sys­                 Commerce appropriations. The eight challenges fac­
              tems did not substantially comply with the require­              ing the Department are summarized on pages 3-7 of
              ments of the Federal Financial Management                        this report. The Inspector General’s statement is
              Improvement Act of 1996.                                         available at www.oig.doc.gov.

              KPMG identified one significant deficiency related
              to weaknesses in IT security controls over the                     “… the Secretary has initiated a number of
              Department’s financial management systems, which                   management reforms designed to achieve a
              was not considered a material weakness in internal                 more integrated Department that leverages
              control. It found that, despite the positive efforts               the strengths of its various bureaus to achieve
              made by the Department to help establish sound                     its goals.”
              information security practices over financial manage­
              ment systems, the Department needs to continue to                  IG testimony before a U.S. House Energy and
              make improvements to fully ensure that financial                   Commerce Subcommittee, February 9, 2011
              data being processed on the Department’s systems
              have integrity, are securely maintained, and are avail­
              able only to authorized users. The Department
              agreed with these findings and has developed correc­             Nonfederal Audit Activities
              tive action plans to address KPMG’s recommendations.
                                                                               In addition to undergoing OIG-performed audits,
              Importer of Defective Zylon®                                     certain Commerce financial assistance recipients are
                                                                               periodically examined by state and local government
              Fiber Used in Bulletproof Vests                                  auditors and by independent public accountants.
              Reaches Settlement with                                          OMB Circular A-133, Audits of States, Local
              United States                                                    Governments, and Non-Profit Organizations, sets forth
                                                                               audit requirements for most of these audits. For-
              In January 2011, a Japanese company and its                      profit organizations, including those that receive
              American subsidiary agreed to settle a civil false claims        Technology Innovation Program (TIP) funds, are
              case for $1.5 million as the result of an investigation          audited in accordance with Government Auditing
              into the importation and sale of Zylon® fiber used in            Standards. In addition, organizations that received
              bulletproof vests. This settlement is part of a larger           Advanced Technology Program (ATP) funds are
              investigation of the body-armor industry’s use of                audited in accordance with NIST Program-Specific
              Zylon® ballistic material in body armor. The compa­              Audit Guidelines for ATP Cooperative Agreements,
              nies imported Zylon® fiber on behalf of a manufac­               issued by the Department.
              turer in Japan. It was alleged that they were aware, but
              did not disclose, that the fiber degraded quickly and            We examined 200 audit reports during this semian­
              that this rendered bulletproof vests containing woven            nual period to determine whether they contained
              Zylon® unfit for use. Rather, they marketed the fiber            audit findings related to Commerce programs. For
              and downplayed the problem. This settlement was the              119 of these reports, the Department acts as an over



                                                                          19
OIG SAR March 2011.qxd     5/31/11     11:07 AM      Page 20




              Department-Wide Management                                                      March 2011—Semiannual Report to Congress



              sight agency and monitors the audited entity’s compliance with OMB Circular A-133, Government Auditing
              Standards, or NIST’s program-specific reporting requirements. The other 81 reports cover entities for which
              other federal agencies have oversight responsibility. We identified nine reports with material findings related to
              the Department of Commerce.

                Report Category                            OMB A-133 Audits                     Program-Specific Audits            Total

                Pending (October 1, 2010)                               68                                         1                  69

                Received                                               132                                    81                      213

                Examined                                               157                                    43                      200

                Pending (March 31, 2011)                                43                                    39                      82


              The following table shows a breakdown by operating unit of approximately $427 million in Commerce
              funds audited.


                Agency                                                                                                     Funds

                Economic Development Administration                                                                     $88,472,940

                Minority Business Development Agency                                                                        795,515

                National Institute of Standards and Technology*                                                         125,233,818

                National Oceanic and Atmospheric Administration                                                         106,338,186

                National Telecommunications and Information Administration*                                              12,194,311

                Multi-Agency                                                                                             93,596,421

                Total                                                                                                  $426,631,191

              * Includes $ 61,375,334 and $4,792,585 in program-specific audits for NIST and NTIA, respectively.

              We identified a total of $3,340,073 in the federal share of questioned costs and $193,585 in funds to be put
              to better use. In most reports, the subject programs were not considered major programs; thus, the audits
              involved limited transaction and compliance testing against laws, regulations, and grant terms and conditions.
              The nine reports with Commerce findings are listed in Table 7-a (see page 44).




                                                                              20
OIG SAR March 2011.qxd   5/31/11    11:07 AM    Page 21




                          ECONOMICS AND STATISTICS

                              ADMINISTRATION


              T
                      he Economics and Statistics Administration (ESA) analyzes economic activity, formulates policy
                      options, and produces a major share of the U.S. government’s economic and demographic statistics.
                      The chief economist monitors and analyzes economic developments and directs studies that have a
              bearing on the formulation of economic policy. ESA has two principal organizational units:

              Census Bureau is the country’s preeminent statistical collection and dissemination agency. The bureau pub­
              lishes a wide variety of statistical data about the nation’s people and economy, conducting approximately
              200 annual surveys in addition to the decennial census of the U.S. population and the quinquennial census
              of industry.

              Bureau of Economic Analysis prepares, develops, and interprets national income and product accounts (sum­
              marized by the gross domestic product), as well as aggregate measures of international, regional, and state eco­
              nomic activity.


              2010 Census: PSP Lacked                                         community events. As part of our ongoing oversight
                                                                              of the 2010 Census, we audited purchases made
              Adequate Controls for Monitoring
                                                                              under the PSP.
              Purchases and Ensuring
              Compliance (OIG-11-013-A)                                       While Census has several reports and systems in place
                                                                              to monitor purchases made for partners, few of the
              The Partner Support Program (PSP) was developed                 systems actually communicate with or reconcile to
              by the Census Bureau to complement the outreach                 one another. This makes it difficult for Census head­
              efforts of Census’s partner organizations. Partner              quarters to track purchases over the long term.
              organizations include government, non-profit, and               Purchases that had been miscoded in some of these
              corporate or community organizations that formally              systems further hindered management’s ability to
              pledged their commitment to share the 2010 Census               monitor the program. Moreover, some Census
              message and mobilize their constituents of historical­          employees who had purchasing authority did not fol­
              ly “hard-to-count” demographic groups in support of             low federal and Commerce acquisition guidelines
              the bureau’s goal of achieving a complete and accu­             and policies. Purchasing for the program started later
              rate count.                                                     than anticipated, and the program changed rapidly
                                                                              over its lifecycle, making it difficult to train Census
              To spread the bureau’s message about the 2010                   staff thoroughly and in a timely fashion. Although
              decennial, Census worked with its partners in a vari­           the bureau distributed written guidance to staff,
              ety of ways, including purchasing promotional items             the guidance was often unclear or misunderstood
              (such as pens, flyers, or caps) for the partners to dis­        by them.
              tribute locally, and participating in festivals or other


                                                                         21
OIG SAR March 2011.qxd      5/31/11   11:07 AM   Page 22




              Economics and Statistics Administration                                     March 2011—Semiannual Report to Congress



              Should Census implement a similar promotional                   ■	   OIG Field Observations. IT systems’ instability
              outreach program in 2020, we recommend the                           caused higher costs and may have negatively affect­
              following:                                                           ed the process for ensuring data quality. Our
                                                                                   February and May 2010 quarterly reports raised
              ■	   Ensure that manual and automated tracking sys­                  questions about the viability of PBOCS, Census’s
                   tems are fully functional and integrated, and that              primary tool for field workload planning and
                   reconciliation with the financial accounting system             reporting. Our field observations confirmed the
                   is in place prior to implementing the program.                  expected: increased cost and potential data errors
                                                                                   because of PBOCS’ inadequacies. We described
              ■	   Improve management oversight of purchase card                   how the system adversely affected NRFU and its
                   purchases to identify staff noncompliance with                  quality control component, the Field Verification
                   policies and procedures for both purchase card­                 operation that followed NRFU, and the comple­
                   holders and partnership staff.                                  tion of the Update/Enumerate operation.
              ■	   Conduct timely training that reemphasizes federal          Previous OIG reports tracked early field operations
                   and Commerce acquisition rules, such as split pur­         (before April 1, 2010) and NRFU. OIG oversight of
                   chases, conflicts of interest, and other procedural        the 2010 Census continued with NRFU and VDC.
                   rules; and provide manuals with updates and step­          We observed some enumerators not following impor­
                   by-step instructions.                                      tant procedures, such as those for leaving notice of
                                                                              visits and following questionnaire scripts. During
              2010 Census: Quarterly Report to                                VDC, we also observed respondents’ unwillingness to
              Congress (OIG-11-017-I)                                         answer interview questions, which affected produc­
                                                                              tion. We also found that Census map quality needs
              This report covers 2010 Census activities for two               improvement.
              quarters, from April through September 2010. We
              addressed the status of the Census budget and spend­            ■    Census Employee Safety. Our review of Census field
              ing of Recovery Act funds; the status of OIG field                   notes and incident reports indicated that not all
              observations, especially for Nonresponse Follow-up                   threats and other criminal conduct directed at enu­
              (NRFU) and Vacant Delete Check (VDC) opera­                          merators generated either a formal review or an
              tions, and how paper-based operations control sys­                   enforcement action. NRFU highlighted many
              tem (PBOCS) problems affected them; and risk                         instances of Census employee risk at the hands of
              management activities, including enumerator safety                   respondents; reports detailed hundreds of instances
              and an allegation of improprieties at one local Census               of threats as well as physical, verbal, or sexual
              office. In addition, we reported the findings of other               attacks. We suggested that the Census Bureau, the
              OIG reviews during this period. More specifically, we                Department of Commerce, law enforcement
              focused on:                                                          agencies, and Congress collaborate to develop an
                                                                                   appropriate solution that explicitly addresses
              ■    2010 Census Costs. Although FY 2010 spending                    enumerator safety.
                   remained under budget ($7.4 billion projected;
                   about $5.5 billion spent), Census did not adequate­        ■	   Risk Management Activities. Census’s Risk Review
                   ly implement our recommendation to control                      Board (RRB) continued to oversee risk manage­
                   wage, travel, and training costs. Our two previous              ment activities and modify its risk register.
                   quarterly reports highlighted lower cost estimates              However, the RRB made little progress in finalizing
                   offset by higher spending, which were obscured by               outstanding contingency plans. The board’s inabil­
                   financial management reporting that lacked trans­               ity to prioritize the completion of remaining con­
                   parency; this report noted that the trend continued             tingency plans—especially with one of the risks
                   due to inadequate planning and insufficient track­              rated “high” throughout the major decennial oper­
                   ing by the bureau. Additionally, our analysis of                ations—was of serious concern.
                   travel and training costs revealed inefficiencies.



                                                                         22
OIG SAR March 2011.qxd     5/31/11    11:07 AM   Page 23




              March 2011—Semiannual Report to Congress                                            Economics and Statistics Administration



              ■	    Other OIG Census Reviews. During this period,             We recommended that the Census Bureau’s Chief,
                   we examined contract labor costs; investigated             Acquisition Division,
                   important whistleblower accusations at a Brooklyn,
                   New York, local Census office; and looked at the           ■    develop and implement internal controls to ensure
                   bureau’s process for handling fingerprint checks of             that, going forward, pre-award policies and process­
                   potential hires.                                                es are adhered to;

              This report did not provide recommendations. We                 ■	   direct the DRIS contracting officer to obtain the
              are publishing a synopsis and final report of all OIG                proper reviews, support, and approval before issu­
              field operations and evaluations of the 2010 Census                  ing contract solicitations;
              in the spring of 2011.
                                                                              ■	   ensure determination and findings on future con­
              2010 Census: Contract                                                tracts contain supporting details;
              Modifications and Award-Fee                                     ■    conduct and document a cost-benefit analysis when
              Actions on DRIS Demonstrate                                          deciding whether to use this contract type in the
              Need for Improved Contracting                                        future; and
              Practices (OIG-11-020-A)                                        ■	   require the contracting officer to revise the award-
                                                                                   fee payment structures of the final phase of the
              In October 2005, the Census Bureau awarded a $483
                                                                                   DRIS contract to provide incentives for excellent
              million cost-plus-award-fee contract to Lockheed
                                                                                   contractor performance, and prohibit the contrac­
              Martin Corporation to develop and implement the
                                                                                   tor from receiving award fees for less-than-satisfac­
              Decennial Response Integration System (DRIS), an
                                                                                   tory performance.
              information system that would assist in 2010 Census
              data collection and analysis. The contract has a 6-year
                                                                              FY 2010 Consolidated Financial
              performance period, with completion scheduled for
              September 2011. In September 2007, Census award­                Statements Audits (FSA-11-008)
              ed Lockheed Martin an approximately $264.6 mil­
                                                                              Independent auditor KPMG LLP found that the
              lion modification to the DRIS contract. Most of the
                                                                              Census Bureau’s consolidated financial statements
              cost for the modification was for increasing out­
                                                                              were presented fairly in all material respects and in
              bound telephone coverage follow-up (in which
                                                                              conformity with U.S. generally accepted accounting
              households were contacted by telephone to verify the
                                                                              principles. It found no material weaknesses in inter­
              information provided in mailed-back Census forms).
                                                                              nal control of financial reporting and no instances of
              As part of our oversight of the 2010 Census, we per­            reportable noncompliance with applicable laws, regu­
              formed an audit to determine whether Census’s con­              lations, and contracts.
              tracting officer appropriately awarded the contract
                                                                              KPMG’s IT review found that while Census has
              modification number and used the appropriate con­
                                                                              taken positive steps to correct previous IT findings,
              tract type for the initial DRIS award. We found that
                                                                              there are still weaknesses related to IT controls sup­
              the Census Bureau did not have adequate contract
                                                                              porting the bureau’s financial management systems.
              pre-award practices in place to ensure that the $264.6
                                                                              However, these weaknesses were not considered to be
              million modification to the DRIS contract was prop­
                                                                              a material weakness or a significant deficiency in con­
              erly awarded. The lack of well-defined pre-award
                                                                              trols. Census agreed with these findings and has
              processes may have resulted in the bureau’s inability
                                                                              developed corrective action plans to address KPMG’s
              to promote and provide for full and open competi­
                                                                              recommendations.
              tion and ensure a fair and reasonable price in
              awarding this modification. We also found that the
              bureau’s justification for the contract type and pay­
              ment structure it chose for DRIS did not conform to
              federal guidance.


                                                                         23
OIG SAR March 2011.qxd   5/31/11    11:07 AM    Page 24




              Economics and Statistics Administration                                 March 2011—Semiannual Report to Congress



              Census Employee Pleads Guilty to                               Census Contractor Settles with
              Falsifying Documents                                           Department
              In March 2011, a Census employee pled guilty to one            A series of OIG audits identified $3 million in ques­
              count of violating 18 U.S.C. § 1001, which prohibits           tioned and unsupported costs in a Census contract
              false official statements, and agreed to pay $27,622 in        with a major IT contractor. The findings prompted
              restitution to the government. In December 2010,               an investigation, which found improper billings by
              the employee was indicted in U.S. District Court for           the contractor, variances in labor categories and rates
              the Central District of California on one count of             billed by subcontractors, and pyramiding of profits
              making false statements to the Housing Authority of            (rate increases that were not passed on to subcontrac­
              the City of Los Angeles (HACLA). HACLA admin­                  tors) totaling about $3.4 million over the life of the
              isters the Section 8 housing program, which is fund­           contract. The contractor also failed to provide appro­
              ed by the U.S. Department of Housing and Urban                 priate documentation to support over $16 million in
              Development. OIG investigators found evidence the              labor costs. Although the U.S. Attorney’s Office for
              employee failed to report her Census income to                 the Eastern District of Virginia declined to pursue
              HACLA, which resulted in her improperly receiving              criminal or civil prosecution, OIG and Justice
              $27,622 in Section 8 benefits.                                 Department activities were instrumental in Census’s
                                                                             pursuit of contract remedies. After extensive negotia­
                                                                             tions, the case was settled for $600,000 in
                                                                             March 2011.




                                                                        24
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 25




                        NATIONAL INSTITUTE OF

                     STANDARDS AND TECHNOLOGY


              T
                     he National Institute of Standards and Technology promotes U.S. innovation and industrial com­
                     petitiveness by advancing measurement science, standards, and technology in ways that enhance eco­
                     nomic security and improve quality of life. NIST manages four programs: the Technology Innovation
              Program, the Manufacturing Extension Partnership (MEP) program, the Baldrige National Quality Program,
              and NIST Research Laboratories.


              Multimillion Dollar Civil Judgment                          NIST ATP Grantee Sentenced
              Against NIST Grantee Previously
                                                                          Since October 2006, OIG had been pursuing a fraud
              Convicted of Grant Fraud                                    investigation involving a Texas company that had
                                                                          received $2 million in ATP grant funds for scientific
              In March 2011, the U.S. District Court for the
                                                                          research. The investigation disclosed evidence that
              Southern District of New York granted the govern­
                                                                          the owners of the company were diverting grant
              ment’s motion for summary judgment on a civil False
                                                                          funds to pay the salaries of employees not involved in
              Claims Act case against a grantee who had been
                                                                          the grant-funded research project and to fund unau­
              found guilty of intentionally misusing approximately
                                                                          thorized overhead and other expenses for family
              $500,000 in NIST ATP grant funds to pay for
                                                                          members and a sister company. In November 2010,
              numerous personal expenses. The decision granted
                                                                          the grantee’s principal investigator was sentenced to
              our request for $4,036,500 in trebled damages (three
                                                                          2 years’ probation and ordered to pay $100,207 in
              times the entire original grant amount $1,345,500)
                                                                          restitution and a $100 special assessment following
              and awarded a penalty of $5,500 for one false claim.
                                                                          his January 2010 guilty plea to one count of violating
              In October 2008, the grantee was sentenced to               18 U.S.C. § 666.
              15 months’ imprisonment and 3 years’ probation for
              violating 18 U.S.C. § 666, which covers theft con­
              cerning federally funded programs. The individual
              was also ordered to pay $120,100 in restitution and
              fines pursuant to his conviction. In addition,
              $390,000 worth of computers, power tools, and
              other items seized from his residence were ordered
              forfeited to the government.




                                                                     25
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 26
OIG SAR March 2011.qxd   5/31/11   11:07 AM    Page 27




                      NATIONAL OCEANIC AND

                   ATMOSPHERIC ADMINISTRATION


              T
                      he National Oceanic and Atmospheric Administration mission is to understand and predict changes
                      in Earth’s environment, and to conserve and manage coastal and marine resources to meet our nation’s
                      economic, social, and environmental needs. NOAA does this through six line offices:

              National Weather Service reports the weather of the United States and provides weather forecasts and warn­
              ings to the general public.

              National Ocean Service provides products, services, and information to promote safe navigation, support
              coastal communities, sustain marine ecosystems, and mitigate coastal hazards.

              National Marine Fisheries Service conducts a program of management, research, and services related to the
              protection and rational use of living marine resources.

              National Environmental Satellite, Data, and Information Service observes the environment by operating a
              national satellite system

              Office of Oceanic and Atmospheric Research conducts research related to the oceans and Great Lakes, the
              lower and upper atmosphere, space environment, and the Earth.

              Office of Program Planning and Integration develops and coordinates NOAA’s strategic plan, supports
              organization-wide planning activities, guides managers and employees on program and performance manage­
              ment, and integrates policy analysis with decision-making.


              Survey of NOAA’s System and                                    (CBS), for recording and tracking costs associated
                                                                             with NOAA’s spill-related activities; NOAA offices
              Processes for Tracking Oil Spill
                                                                             also have a process for recording such activities. We
              Costs (OlG-11-016-M)                                           obtained a listing of spill-related financial transac­
              After the April 20, 2010, explosion of the Deepwater           tions recorded in CBS as of June 29, 2010, totaling
              Horizon offshore drilling unit caused a massive oil            $16.7 million, and examined the supporting docu­
              spill in the Gulf of Mexico, we initiated an audit sur­        mentation for $9 million.
              vey to assess NOAA’s system and processes for track­
                                                                             During our review of financial transactions, we iden­
              ing costs associated with its response and damage
                                                                             tified several potential cost-related issues that, if not
              assessment efforts.
                                                                             addressed by NOAA management, may increase the
              NOAA established a project code structure within its           risk that NOAA’s efforts in the Gulf will not be
              core financial system, Commerce Business Systems               appropriately reimbursed: unapproved compensatory


                                                                        27
OIG SAR March 2011.qxd   5/31/11    11:07 AM    Page 28




              National Oceanic and Atmospheric Administration                           March 2011—Semiannual Report to Congress



              time and overtime, manual transfers of costs to oil              In the course of our inquiry, however, we determined
              spill projects, application of overhead costs, and               that NOAA did not conduct a sufficient search for
              improper travel costs. In addition to these cost-relat­          potentially responsive records prior to responding to
              ed concerns, we identified the following documenta­              these requests. Therefore, we recommended that
              tion and personnel-activity tracking issues: vague               NOAA carry out a proper search for the records sought
              descriptions on activity logs and hours; activity log            in these FOIA requests and, as appropriate, reassess its
              data not reconciling with timekeeping records; insuf­            responses. We also recommended that NOAA consid­
              ficient supporting documentation for payroll, travel,            er whether these issues warranted an overall assessment
              and contracts; and an incomplete roster of employees             of the sufficiency of its FOIA process.
              deployed to the Gulf.
                                                                               We also found one CRU e-mail that raised questions
              We recognize that NOAA will continue to provide                  about the use of NOAA’s funds by a visiting fellow at
              significant expertise in the months and years ahead to           the CRU, and another that contained a satirical
              assess the oil spill’s impact on our ecosystem and to            photo collage of climate change skeptics created by
              begin restoration of damaged natural resources.                  one NOAA scientist and forwarded by another to the
              Therefore, we recommended that NOAA ensure that                  director of the CRU. NOAA acknowledged and took
              oil spill activities are charged to the appropriate proj­        steps to address each of these concerns. We recom­
              ect, costs are accurately recorded in the accounting             mended that NOAA examine any contracts, grants,
              system, and documentation supporting all activities              or cooperative agreements awarded to the CRU to
              and costs is complete and accurate.                              verify conformance with all terms and specifications,
                                                                               and to identify any irregularities. NOAA also
              Examination of Issues Related to                                 informed us during the course of our inquiry that the
              Internet Posting of NOAA Climate                                 scientists who created and forwarded the collage had
                                                                               been counseled by their respective supervisors.
              Scientists’ E-mail Exchanges
              In response to a congressional request, OIG exam­                Former NOAA Employee
              ined issues related to the Internet posting of e-mail            Convicted and Sentenced on Child
              exchanges among many of the world’s leading climate              Pornography Charges
              scientists, including NOAA employees, that were
              taken from the Climatic Research Unit (CRU) of the               In December 2010, a former NOAA employee was
              University of East Anglia in the United Kingdom in               sentenced to 3 months’ imprisonment, 6 months’
              a reported hacking incident in November 2009. As                 home monitoring, and 10 years of supervised release
              part of our inquiry, we interviewed Dr. Jane                     in connection with his May 2010 guilty plea to fed­
              Lubchenco, Under Secretary of Commerce for                       eral child pornography charges. He was also ordered
              Oceans and Atmosphere and NOAA Administrator,                    to pay a $10,000 fine. In October 2009, the U.S.
              and other NOAA personnel, and conducted a review                 Department of Homeland Security, Immigration and
              of the 1,073 CRU e-mails in question (spanning 13                Customs Enforcement notified OIG of an ongoing
              years, from 1996 to 2009). Our efforts alerted us to             investigation of the employee for misuse of comput­
              several matters that we felt warranted further action.           ers to view child pornography. OIG assisted in his
                                                                               arrest and the analysis of his government computer,
              We found a reference in a CRU e-mail to a Freedom of             which did contain evidence of child pornography.
              Information Act (FOIA) request made to NOAA in                   The individual subsequently retired from NOAA.
              2007 for documents related to NOAA scientists’ par­
              ticipation in the United Nations International Panel
              for Climate Change. The reference, upon further
              investigation, raised questions about NOAA’s process­
              ing of that and several additional, nearly identical,
              FOIA requests. In each case, NOAA responded to the
              FOIA requester that it had no responsive documents.


                                                                          28
OIG SAR March 2011.qxd   5/31/11    11:07 AM     Page 29




               NATIONAL TELECOMMUNICATIONS

              AND INFORMATION ADMINISTRATION


              T
                       he National Telecommunications and Information Administration serves as the executive branch’s
                       principal advisor to the President on domestic and international telecommunications and information
                       policy issues. NTIA manages the federal use of the electromagnetic spectrum; provides grants for
              national information and public broadcasting infrastructure projects; and performs telecommunications
              research and engineering. It works to enhance citizens’ access to cable television, telephone, and other telecom­
              munications services; and educates state and local governments and other entities on ways to use information
              technology and telecommunications more effectively.



                  Digital Television Transition and Public
                                                                              Second Annual Assessment of
                Safety Act of 2005 (Title III of P.L. 109-171,                the PSIC Grant Program
                     the Deficit Reduction Act of 2005)                       (OIG-11-001-A)
                The Digital Television Transition and Public Safety           Our report details our second annual assessment of
                Act of 2005 authorized NTIA, in consultation with             NTIA’s PSIC grants management for the year ended
                the Department of Homeland Security, to imple­                September 30, 2009, with selected updates through
                ment the Public Safety Interoperable Communi­                 March 31, 2010. The purpose of our audit was to
                cations (PSIC) program—a $1 billion one-time,                 determine whether (1) the program was operating
                formula-based matching grant program intended                 efficiently, with grantees procuring communications
                to enable public safety agencies to establish interop­        equipment; (2) the program was effectively enabling
                erable emergency communications systems using                 grant recipients to complete their interoperable com­
                reallocated radio spectrum. Recipients are required           munications projects before the program’s deadline;
                to have a minimum 20 percent matching share                   and (3) whether technical assistance provided by
                from nonfederal sources for the acquisition and               NTIA and the Federal Emergency Management
                deployment of communications equipment, as well               Agency (FEMA) would be effective in assisting
                as management and administration costs.                       grantees achieve program goals.
                The Implementing Recommendations of the 9/11
                                                                              We found that grantees were making progress in
                Commission Act of 2007 (P.L. 110-53) requires
                                                                              meeting the goal of obtaining communications
                OIG to conduct financial audits, over 4 years, of a
                                                                              equipment for use by local public safety agencies. We
                representative sample of at least 25 states or terri­
                                                                              did not find any indication that grantees would not
                tories receiving PSIC grants. The statute also
                                                                              meet the PSIC award period deadline. However,
                requires OIG to annually assess the management
                                                                              grantees were having difficulty meeting and docu­
                of the program and report any findings and rec­
                                                                              menting nonfederal matching fund requirements.
                ommendations from that annual assessment to the
                                                                              Both NTIA and FEMA concurred with our recom­
                relevant congressional committees.
                                                                              mendation to closely monitor grantees’ matching


                                                                         29
OIG SAR March 2011.qxd     5/31/11   11:07 AM    Page 30




              National Telecommunications and Information Administration                  March 2011—Semiannual Report to Congress



              shares to ensure that matches directly benefit the               proportion with federal match. We concurred with
              PSIC grant program, meet eligibility requirements,               these resolutions to the findings.
              and are properly reported.
                                                                               Audit of Massachusetts
              NTIA and FEMA’s PSIC guidance documents, work-
                                                                               PSIC Grant Award No.
              shops, and conferences will benefit grantees trying to
              meet the obligations of the program before the dead­             2007-GS-H7-0036 (OIG-11-003-A)
              line for funding is reached.
                                                                               On September 30, 2007, NTIA awarded a PSIC
                                                                               grant to the Commonwealth of Massachusetts. The
              Audit of California PSIC Grant
                                                                               grant provided federal funding of $21,191,988, of
              Award No. 2007-GS-H7-0008                                        which $14,306,260 required nonfederal matching
              (OIG-11-002-A)                                                   contributions. The Massachusetts Executive Office of
                                                                               Public Safety and Security (EOPSS) was designated
              On September 30, 2007, NTIA awarded a                            as the administrative agency to apply for and admin­
              $94,034,510 PSIC grant to the State of California to             ister PSIC funds.
              enhance interoperable emergency communications,
              of which $61,612,835 required nonfederal matching                Our audit covered the award period of October 1,
              contributions. The         California     Emergency              2007, through June 30, 2009, during which time
              Management Agency (CalEMA) was designated as                     EOPSS claimed total costs of $313,943. We found
              the administrative agency to apply for and administer            that EOPSS appeared to be on track to complete its
              PSIC funds.                                                      10 interoperable communications investments before
                                                                               the end of the grant period and was generally in com-
              Our audit covered the award period of October 1,                 pliance with PSIC grant requirements.
              2007, through June 30, 2009, during which time
              CalEMA claimed total costs of $3,273,405. In gener-              Audit of Texas PSIC Grant Award
              al, CalEMA appears to be on track to complete its
                                                                               No. 2007-GS-H7-0044
              interoperable communications investments before
                                                                               (OIG-11-007-A)
              the end of the award, but we did find several areas of
              concern. Specifically, we found the following:                   On September 30, 2007, NTIA awarded a PSIC
                                                                               grant to the State of Texas. The grant provided feder­
              ■   CalEMA has not provided proper documentation
                                                                               al funding of $65,069,247, of which $63,836,923
                  for almost $600,000 of its nonfederal matching
                                                                               required nonfederal matching contributions. The
                  share, which could lead to a $2.4 million reduction
                                                                               Texas Department of Public Safety’s (TxDPS)
                  in federal funds allowed.
                                                                               Governor’s Division of Emergency Management was
              ■   CalEMA has been noncompliant with PSIC                       designated as the administrative agency to apply for
                  requirements in several areas, including not fulfill­        and administer PSIC funds.
                  ing reporting requirements, insufficiently monitor-

                                                                               Our audit covered the award period of October 1,
                  ing subrecipients, allowing ineligible costs incurred
                                                                               2007, through June 30, 2009, during which time
                  by subrecipients, and claiming costs for vehicle
                                                                               TxDPS claimed total costs of $2,207,092. In gener­
                  repairs and other invalid expenditures. We ques­
                                                                               al, TxDPS appears to be on track to complete its
                  tioned $73,474 of the costs CalEMA claimed dur­
                                                                               investments before the end of the award, but we did
                  ing the audit period.
                                                                               find several areas of concern. Specifically, we found
              In response to the findings, CalEMA submitted                    the following:
              budget modifications, revised financial reports, and
                                                                               ■    TxDPS has not provided sufficient nonfederal
              agreed to remove questionable costs from budget
                                                                                   funds to meet its matching share requirement and
              claims. Further, NTIA agreed to work with
                                                                                   has been incorrectly reporting its matching funds in
              California to bring nonfederal matching funds into
                                                                                   its quarterly financial reports.


                                                                          30
OIG SAR March 2011.qxd     5/31/11    11:07 AM   Page 31




              March 2011—Semiannual Report to Congress                   National Telecommunications and Information Administration



              ■	   In 11 out of the 25 drawdowns we reviewed,                 In response to the findings, TxDPS demonstrated
                   TxDPS did not fully comply with the grant’s                improved internal accounting controls, remitted the
                   requirements for drawing down funds within 30              imputed interest to the Treasury, and submitted an
                   days of disbursement and placing these funds in an         investment modification request addressing various
                   interest-bearing account so that any accrued inter­        budget changes, which was approved by NTIA and
                   est can be remitted to the U.S. Treasury.                  FEMA. We concurred with these resolutions to the
                                                                              findings.
              ■    TxDPS transferred a total of $1,265,226 from the
                   budgets of several of its investments to another
                   investment without requesting or receiving the
                   needed approval from NTIA or FEMA.




                                                                         31
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 32
OIG SAR March 2011.qxd   5/31/11     11:07 AM    Page 33




                           UNITED STATES PATENT AND

                              TRADEMARK OFFICE


              T
                       he United States Patent and Trademark Office administers the nation’s patent and trademark laws.
                       Patents are granted and trademarks registered under a system intended to provide incentives to invent,
                       invest in research, commercialize new technology, and draw attention to inventions that would other­
              wise go unnoticed. USPTO also collects, assembles, publishes, and disseminates technological information dis­
              closed in patents.


              USPTO Patent Quality Assurance                                    patent quality assurance program in both the technology
                                                                                centers (TCs) and the Office of Patent Quality Assurance
              Process (OIG-11-006-I)
                                                                                (OPQA). We also found that TCs are not required to
              At the request of the Senate Appropriations                       consider OPQA’s decisions during the resolution and
              Subcommittee on Commerce, Justice, and Science,                   adjudication of patent errors, and that OPQA does not
              OIG examined USPTO’s quality assurance program                    monitor how the patent processing errors it finds in its
              to determine its effectiveness in ensuring that estab­            reviews are adjudicated within the TCs. Lastly, we discov­
              lished quality standards are met, and whether                     ered potential violations of departmental litigation hold
              USPTO’s patent quality assurance process complies                 notices and improper disposition of records.
              with applicable federal, USPTO, and other laws, reg­
                                                                                We recommended that the Commissioner for Patents
              ulations, policies, procedures, and guidelines.
                                                                                establish standard policies, procedures, and practices
                                                                                for quality assurance reviews within the TCs and
                                                                                OPQA; clarify OPQA’s role in monitoring the final
                                What Is a Patent?
                                                                                adjudication of patent errors within the TCs; imple­
                A patent for an invention is the grant of a prop­               ment practices to ensure that patents are reviewed
                erty right to the inventor, usually for 20 years                and issued within the timeframes established by the
                from the patent application’s U.S. filing date                  American Inventors Protection Act; adhere to
                and subject to the payment of maintenance fees.                 USPTO’s Comprehensive Records Schedule; and
                The patent confers the right to exclude others                  comply with litigation hold notices.
                from making, using, offering for sale, selling, or
                importing the invention. Once USPTO issues a                    Stronger Management Controls
                patent, the patentee must enforce the patent                    Needed over USPTO’s Projection
                without aid from USPTO.                                         of Patent Fee Collections
                                                                                (OIG-11-014-A)

              While USPTO incorporates quality assurance into its               USPTO is a fully fee-funded agency. Since the fees it
              patent review process, our review found that USPTO                collects must fund its operations, it is especially
              lacks standard policies, procedures, and practices for the        important that USPTO assure its stakeholders that


                                                                           33
OIG SAR March 2011.qxd    5/31/11    11:07 AM    Page 34




              United States Patent and Trademark Office                                 March 2011—Semiannual Report to Congress



              the best available fee collection projections are devel­        is difficult for USPTO to learn from the variances
              oped and used. Without such assurances, the agency              between forecasts and actual collections, and how to
              risks having to adjust spending in ways that could              reduce them. As a result, stakeholders may not have
              disrupt key operations and initiatives to improve               clear expectations of what the agency will be able to
              patent quality and timeliness. Our audit objective              fund because the differences between the estimated
              was to determine whether USPTO has an effective                 and actual patent fee collections have fluctuated con-
              process for projecting patent revenue that enables it           siderably. Stronger management controls would,
              to meet its mission and strategic goals for patents.            therefore, enhance transparency and accountability.

              For fiscal years 2006 through 2009, USPTO experi-               While the aggregate differences between projections
              enced significant disparities between projected and             and collections appear to be within a generally
              actual patent fee collections; these ranged from short-         acceptable margin of forecasting error, such data
              falls of about $56.6 million in FY 2006 to $171 mil-            actually mask much greater differences for individual
              lion in FY 2009 (not a typical year for the economy).           fees (of which there are almost 250). USPTO has
                                                                              repeatedly over- and underestimated the amount of
                                                                              specific patent fees that it will collect in a given year,
                    Fiscal Year 2009 Patent Fee Collections                   sometimes by as much as 20 to 50 percent. These dif­
                                                                              ferences mask the difficulty that USPTO has in accu­
                                                                              rately projecting the levels of certain types of fees,
                                     9%
                                                                              which amount to differences between projected and
                               7%
                                                                              actual collections of tens of millions of dollars.
                                                 33%
                            8%
                                                                              During the time covered in our review, FY 2006
                                                                              through FY 2009, the patent application backlog
                             15%                                              grew from 701,000 to nearly 736,000. Similarly, the
                                          28%                                 average amount of time it took to reach a decision on
                                                                              a patent application grew from about 31 months to
                                                                              about 35 months. While not demonstrably connect­
                                                                              ed to forecast accuracy and transparency, a better
                Maintenance Fees                                              forecasting process would give stakeholders more
                Application Filing Fees                                       comprehensive data with which to develop expecta-
                                                                              tions. As USPTO implements a new strategic plan, a
                Patent Issue Fees                                             framework recognizing the importance of risks asso­
                Patent Extension Fees                                         ciated with variances in fee-collection forecasts will be
                                                                              increasingly important.
                Patent Cooperation Treaty Fees

                Sum of Remaining Seven Patent Fee Categories
                 In order to strengthen USPTO operations over
                                                                              patent fee forecasting, we made three detailed recom-
              Source: OIG based on USPTO data.                                mendations to the Under Secretary of Commerce for
                                                                              Intellectual Property/USPTO Director. These entail
              USPTO does not have clear guidance or a disci­                  (1) directing USPTO’s Chief Financial Officer
              plined, documented process for forecasting patent fee           (CFO) to establish and implement written policies
              collections. According to officials, keeping the overall        and procedures for developing fee-collection fore-
              process of developing projections “fluid” is the reason         casts; (2) requiring the CFO to annually report on
              that a deliberate decision was made not to have man-            the variances between projected and actual patent fee
              dated guidance or documentation. The patent pro-                collections, including their causes and any noted
              duction model, which generates data used to project             trends; and (3) directing the Commissioner for
              fee collections, also lacks management controls such            Patents to establish and implement written policies
              as written policies and procedures. Without these, it           and procedures for the patent production model.


                                                                         34
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 35




              March 2011—Semiannual Report to Congress                               United States Patent and Trademark Office



              FY 2010 Consolidated Financial                            KPMG identified one significant deficiency related to
                                                                        controls over general information technology, which
              Statements Audits (FSA-11-009)
                                                                        was not considered a material weakness in internal
              Independent auditor KPMG LLP found that                   control. Although USPTO has taken corrective
              USPTO’s consolidated financial statements are             actions and made positive efforts to address certain IT
              presented fairly in all material respects and in          control weaknesses, KPMG found USPTO needs to
              conformity with U.S. generally accepted accounting        continue to make improvements in its IT general con­
              principles. It found no instances of reportable           trol environment to fully ensure that financial data
              noncompliance with applicable laws, regulations,          being processed on USPTO’s systems is complete, is
              and contracts.                                            reliable, and has integrity. USPTO agreed with these
                                                                        findings and has developed corrective action plans to
                                                                        address KPMG’s recommendations.




                                                                   35
OIG SAR March 2011.qxd    5/31/11   11:07 AM   Page 36




              Statistical Data                                                     March 2011—Semiannual Report to Congress



              STATISTICAL DATA
              The Inspector General Act Amendments of 1988 require the statistical data contained in Tables 1-8.

               TABLES                                                                                              Page

               1. Office of Investigation Statistical Highlights for This Period                                    36
               2. Audit Resolution and Follow-up                                                                    37
               3. Audit and Evaluation Statistical Highlights for This Period                                       38
               4. Audits with Questioned Costs                                                                      39
               5. Audits with Recommendations That Funds Be Put to Better Use                                       39
               6. Report Types for This Period                                                                      40
                       6-a. Performance Audits                                                                      41
                       6-b. Financial Assistance Audits                                                             42
                       6-c. Financial Statements Audits                                                             42
                       6-d. Evaluations and Inspections                                                             43
               7. Single Audit and Program-Specific Audits                                                          43
                       7-a. Processed Audit Reports                                                                 44
               8. Audits Unresolved for More Than 6 Months                                                          45



              Table 1. Office of Investigation Statistical Highlights for This Period

              Investigative activities cover investigations opened and closed by OIG; arrests by OIG agents; indictments and
              other criminal charges filed against individuals or entities as a result of OIG investigations; convictions secured
              at trial or by guilty plea as a result of OIG investigations; and fines, restitution, and all other forms of finan­
              cial recoveries achieved by the OIG as a result of investigative action.

              Allegations processed presents the number of complaints from employees, stakeholders, and the general pub­
              lic that were handled by our Complaint Intake Unit. Of these, some result in the opening of investigations;
              others are referred to Commerce operating units for internal administrative follow-up. Others are unrelated to
              Commerce activities or do not provide sufficient information for any investigative follow-up and so are not
              accepted for investigation or referral.

               Investigative Activities

               Investigations opened                                                                                  7
               Investigations closed                                                                                24
               Arrests                                                                                                0
               Indictments/Informations                                                                               3
               Convictions                                                                                            1
               Fines and other financial recoveries                                                        $6,252,307



                                                                     36
OIG SAR March 2011.qxd   5/31/11   11:07 AM    Page 37




              March 2011—Semiannual Report to Congress                                                         Statistical Data




               Allegations Processed

               Hotline complaints                                                                           194

               Total complaints, all sources                                                                316

               Referrals to operating units                                                                 102

               Evaluated but not accepted for investigation or referral                                     127



              Table 2. Audit Resolution and Follow-up

              The Inspector General Act Amendments of 1988 require us to present (in this report) audits issued before
              the beginning of the reporting period (October 1, 2010) for which no management decision had been made
              by the end of the period (March 31, 2011). Seven audit reports remain unresolved for this reporting period
              (see page 45).

              Audit resolution is the process by which the Department of Commerce reaches an effective management deci­
              sion in response to audit reports. Management decision refers to management’s evaluation of the findings and
              recommendations included in the audit report and the issuance of a final decision by management concerning
              its response.

              Department Administrative Order 213-5, Audit Resolution and Follow-up, provides procedures for management
              to request a modification to an approved audit action plan or for a financial assistance recipient to appeal an
              audit resolution determination. The following table summarizes modification and appeal activity during the
              reporting period.

               Report Category                                            Modifications                   Appeals

               Actions pending (October 1, 2010)                                 0                            0

               Submissions                                                       0                            3

               Decisions                                                         0                            1

               Actions pending (March 31, 2011)                                  0                            2




                                                                    37
OIG SAR March 2011.qxd    5/31/11   11:07 AM   Page 38




              Statistical Data                                                    March 2011—Semiannual Report to Congress



              Table 3. Audit and Evaluation Statistical Highlights for This Period

              Audits comply with standards established by the Comptroller General of the United States for audits of feder­
              al establishments, organizations, programs, activities, and functions.

              Inspections include evaluations, inquiries, and similar types of reviews that do not constitute an audit or a
              criminal investigation.

              Questioned costs*                                                                          $3,398,852

              Value of audit recommendations that funds be put to better use**                              194,790

              Value of audit recommendations agreed to by management***                                   2,544,653

              *Questioned cost: A cost questioned by OIG because of (1) an alleged violation of a provision of a law, regu­
              lation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
              funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
              (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

              **Recommendation that funds be put to better use: An OIG recommendation that funds could be used
              more efficiently if Commerce management took action to implement and complete the recommendation.
              These actions may include (1) reductions in outlays; (2) deobligation of funds from programs or operations;
              (3) withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred
              by implementing recommended improvements related to Commerce, a contractor, or a grantee; (5) avoidance
              of unnecessary expenditures identified in pre-award reviews of contracts or grant agreements; or (6) any other
              savings specifically identified.

              ***Value of audit recommendations agreed to by management: The sum of 1) disallowed costs and 2) funds
              put to better use that are agreed to by management during resolution. Disallowed costs are the amount of costs
              that were questioned by the auditors or the agency action official and subsequently determined during audit
              resolution, or during negotiations by a contracting officer, should not be charged to the government.




                                                                     38
OIG SAR March 2011.qxd        5/31/11       11:07 AM      Page 39




              March 2011—Semiannual Report to Congress                                                                                       Statistical Data



              Table 4. Audits with Questioned Costs
              See Table 3 for a definition of “questioned cost.” An unsupported cost is a cost that is not supported by ade­
              quate documentation at the time of the audit. Questioned costs include unsupported costs.

                                                                                                                  Questioned             Unsupported
                   Report Category                                                               Number             Costs                   Costs

                   A. Reports for which no management decision had been
                      made by the beginning of the reporting period                                 15           $26,069,189              $3,169,363
                   B. Reports issued during the reporting period                                      7             3,398,852                           0
                   Total reports (A+B) requiring a management decision
                   during the period1                                                               22             29,468,041               3,169,363
                   C. Reports for which a management decision was made
                      during the reporting period                                                   10              5,966,695               2,250,303
                           i. Value of disallowed costs                                                             1,777,896               1,337,881
                           ii. Value of costs not disallowed                                                        4,188,799                  912,422
                   D. Reports for which no management decision had been
                      made by the end of the reporting period                                       12             23,501,346                  919,060
              1
                  Five audit reports included in this table are also included among reports with recommendations that funds be put to better use (see Table 5).
                  However, the dollar amounts do not overlap.




              Table 5. Audits with Recommendations That Funds Be Put to Better Use
              See Table 3 for a definition of “recommendation that funds be put to better use.”

                   Report Category                                                                                  Number                     Value

                   A. Reports for which no management decision had been
                      made by the beginning of the reporting period                                                      3                $3,283,313
                   B. Reports issued during the reporting period                                                         3                     194,790
                   Total reports (A+B) requiring a management decision
                   during the period1                                                                                    6                  3,478,103
                   C. Reports for which a management decision was made
                      during the reporting period                                                                        2                     766,757
                           i. Value of recommendations agreed to by management                                                                 766,757
                           ii. Value of recommendations not agreed to by management                                                                     0
                   D. Reports for which no management decision had been
                      made by the end of the reporting period                                                            4                  2,711,346
              1
                  Five audit reports included in this table are also included among reports with questioned costs (see Table 4). However, the dollar amounts do
                  not overlap.




                                                                                      39
OIG SAR March 2011.qxd    5/31/11   11:07 AM    Page 40




              Statistical Data                                                       March 2011—Semiannual Report to Congress



              Table 6. Report Types for This Period
              Performance audits are engagements that provide assurance or conclusions based on an evaluation of suffi­
              cient, appropriate evidence against stated criteria, such as specific requirements, measures, or defined business
              practices. Performance audits provide objective analysis so that management and those charged with gover­
              nance and oversight can use the information to improve program performance and operations, reduce costs,
              facilitate decision making by parties with responsibility to oversee or initiate corrective action, and contribute
              to public accountability.
              Financial assistance audits are audits of Department of Commerce grants, cooperative agreements, loans or
              loan guarantees; or pre- or post-award audits of Commerce contracts.
              Financial statements audits provide reasonable assurance through an opinion (or disclaimer of an opinion)
              about whether an entity’s financial statements are presented fairly in all material respects in conformity with gen­
              erally accepted accounting principles, or with a comprehensive basis of accounting other than these principles.
              Inspections include evaluations, inquiries, and similar types of reviews that do not constitute an audit or a
              criminal investigation. An inspection is defined as a process that evaluates, reviews, studies, and/or analyzes the
              programs and activities of a department or agency for the purposes of providing information to managers for
              decision making; making recommendations for improvements to programs, policies, or procedures; and iden­
              tifying where administrative action may be necessary.

               Type                                                 Number of Reports Table                   Number

               Performance audits                                                8                            Table 6-a
               Financial assistance audits                                       3                            Table 6-b
               Financial statement audits                                        7                            Table 6-c
               Evaluations and inspections                                       2                            Table 6-d
               Total                                                            20




                                                                      40
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 41




              March 2011—Semiannual Report to Congress                                           Statistical Data



              Table 6-a. Performance Audits

                                                                      Report        Date     Funds to Be Put
               Report Title                                           Number       Issued     to Better Use

               Census Bureau
               2010 Census: The Partner Support Program Lacked
               Adequate Controls for Monitoring Purchases and
               Ensuring Compliance                                   OIG-11-013   11.18.10         0
               Contract Modifications and Award-Fee Actions on the
               Decennial Response Integration System Demonstrate
               Need for Improved Contracting Practices             OIG-11-020     02.15.11         0
               National Telecommunications and Information Administration
               Second Annual Assessment of the Public Safety
               Interoperable Communications Grant Program            OIG-11-001   10.07.10         0
               Broadband Program Faces Uncertain Funding and
               NTIA Needs to Strengthen Its Post-Award Operations OIG-11-005      11.04.10         0
               Office of the Secretary
               Commerce Should Strengthen Accountability and
               Internal Controls in Its Motor Pool Operations        OIG-11-004   10.27.10         0
               Federal Information Management Act Audit Identified
               Significant Issues Requiring Management Attention   OIG-11-012     11.15.10         0
               Commerce Needs to Strengthen Its Improper
               Payment Practices and Reporting                       OIG-11-021   03.25.11         0
               U.S. Patent and Trademark Office
               Stronger Management Controls Needed over
               USPTO’s Projections of Patent Fee Collections         OIG-11-014   12.14.10         0




                                                                41
OIG SAR March 2011.qxd    5/31/11   11:07 AM   Page 42




              Statistical Data                                               March 2011—Semiannual Report to Congress



              Table 6-b. Financial Assistance Audits

                                                    Report     Date Funds to Be Put Amount      Amount
               Report Title                         Number    Issued to Better Use Questioned Unsupported

               National Telecommunications and Information Administration
               California Public Safety
               Interoperable Communications
               Grant                              OIG-11-002 10.21.10          0                 0        $58,779
               Massachusetts Public Safety
               Interoperable Communications
               Grant                              OIG-11-003 10.25.10          0                 0             0
               Texas Public Safety Interoperable
               Communications Grant              OIG-11-007 11.05.10         $1,205              0             0



              Table 6-c. Financial Statements Audits

                                                                        Report          Date         Funds to Be Put
               Report Title                                             Number         Issued         to Better Use

               Census Bureau
               FY 2010 Financial Statements Audit Assessment of
               Information Technology Controls Supporting
               Financial Management Systems                            ITA-11-008     11.10.10             0
               FY 2010 Financial Statements                            FSA-11-008     11.12.10             0
               Office of the Secretary
               FY 2010 Financial Statements Audit Assessment of
               Information Technology Controls Supporting
               Financial Management Systems                            ITA-11-010     11.10.10             0
               FY 2010 Consolidated Financial Statements               FSA-11-010     11.12.10             0
               FY 2010 Special-Purpose Financial Statements            FSA-11-011     11.15.10             0
               U.S. Patent and Trademark Office
               FY 2010 Financial Statements Audit Assessment of
               Information Technology Controls Supporting
               Financial Management Systems                            ITA-11-009     11.10.10             0
               FY 2010 Financial Statements                            FSA-11-009     11.12.10             0




                                                                  42
OIG SAR March 2011.qxd     5/31/11      11:07 AM      Page 43




              March 2011—Semiannual Report to Congress                                                               Statistical Data



              Table 6-d. Evaluations and Inspections

                                                                                        Report          Date     Funds to Be Put
                Report Title                                                            Number         Issued     to Better Use

                Census Bureau
                2010 Census: Quarterly Report to Congress,
                January 2011                                                          OIG-11-017      01.18.11         0
                U.S. Patent and Trademark Office
                USPTO Patent Quality Assurance Process                                OIG-11-006      11.05.10         0



              Table 7. Single Audit and Program-Specific Audits
              OIG reviewed and accepted 200 audit reports prepared by independent public accountants and local, state, and
              other federal auditors. The reports processed with questioned costs, recommendations that funds be put to bet­
              ter use, and/or nonfinancial recommendations are listed in Table 7-a.

                Agency                                                                                               Audits

                Economic Development Administration                                                                    56
                Minority Business Development Agency                                                                     1
                National Institute of Standards and Technology*                                                        68
                National Oceanic and Atmospheric Administration                                                        33
                National Telecommunications Information Administration*                                                10
                Multi-Agency                                                                                           29
                No Commerce expenditures                                                                                 3
                Total                                                                                                 200

              *Includes 41 program-specific audits for NIST and 2 program-specific audits for NTIA.




                                                                                43
OIG SAR March 2011.qxd    5/31/11   11:07 AM   Page 44




              Statistical Data                                         March 2011—Semiannual Report to Congress



              Table 7-a. Processed Reports with Audit Findings

                                                 Report       Date Funds to Be Put Amount      Amount
               Report Title                      Number      Issued to Better Use Questioned Unsupported

               Economic Development Administration
               City of Brighton, CO       ATL-09999-11-3934 01.21.11        0      $1,858,002         0
               Wind River
               Development
               Fund and Painted
               Pony, Inc., WY             ATL-09999-11-3998 03.02.11        0           0             0
               National Institute of Standards and Technology
               GE Global Research, NY ATL-09999-11-4082 03.30.11            0        95,546           0
               GE Global Research, NY ATL-09999-11-4083 03.30.11       $2,867        58,473           0
               Kotura, Inc., CA           ATL-09999-11-4094 03.30.11   190,718       55,636           0
               L3 Communications
               Electro-Optical
               Systems, TX                ATL-09999-11-4081 03.30.11        0        43,758           0
               National Oceanic and Atmospheric Administration
               Metropolitan Park
               District of Toledo
               Area, OH                   ATL-09999-11-3884 01.07.11        0           0             0
               National Telecommunications and Information Administration
               Public Television,
               19, Inc., MO               ATL-09999-11-3961 01.21.11        0       1,228,658         0
               The Partnership for a
               Connected Illinois         ATL-09999-11-3996 03.02.11        0           0             0




                                                                44
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 45




              March 2011—Semiannual Report to Congress                                                       Statistical Data



              Table 8. Audits Unresolved for More Than 6 Months

              Census Bureau                        Computer & High Tech Management, Inc.

                                                   In our September 2005 Semiannual Report, we reported the results of
                                                   audits of 2 of the 21 task orders for IT services that Computer & High
                                                   Tech Management, Inc., was providing to Census. We sought to deter­
                                                   mine whether the firm had complied with contract terms and conditions
                                                   and federal regulations and had billed Census for work performed in
                                                   accordance with specifications of the task order. We found that the firm
                                                   failed to comply with numerous contract and federal requirements,
                                                   which caused us to question more than $10.7 million in direct labor and
                                                   other reimbursable costs. We have suspended audit resolution on this
                                                   contract audit pursuant to an agreement with Census.

              National Institute of Standards
              and Technology                       MEP Program

                                                   In our March 2009, September 2009, and March 2010 Semiannual
                                                   Reports, we discussed our audits of the operations of the five centers
                                                   located in South Carolina, Florida, Massachusetts, Texas, and Ohio that
                                                   received cooperative agreements under the NIST MEP program. Our
                                                   audits questioned over $29 million in costs claimed. NIST provided the
                                                   audit resolution proposal for the South Carolina center and we con­
                                                   curred with the proposal. We are awaiting the submission of the remain­
                                                   ing proposals. (ATL-18568, DEN-18135, DEN-18573, DEN-18604).

              National Oceanic and
              Atmospheric Administration           Alaska Eskimo Whaling Commission

                                                   As reported in our March 2009 Semiannual Report, a single audit review
                                                   of this NOAA grant questioned costs totaling $66,353 in expenditures
                                                   that were not adequately documented. We have suspended audit resolu­
                                                   tion on this grant audit pursuant to an agreement with NOAA.
                                                   (ATL-09999-8-3238)




                                                                  45
OIG SAR March 2011.qxd    5/31/11    11:07 AM   Page 46




              Reporting Requirements                                                   March 2011—Semiannual Report to Congress



              REPORTING REQUIREMENTS
              The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The
              requirements are listed below and indexed to the applicable pages of this report.

               Section                                                        Topic                                        Page

               4(a)(2)                   Review of Legislation and Regulations                                              46
               5(a)(1)                   Significant Problems, Abuses, and Deficiencies                                   13-35
               5(a)(2)                   Significant Recommendations for Corrective Action                                13-35
               5(a)(3)                   Prior Significant Recommendations Unimplemented                                    46
               5(a)(4)                   Matters Referred to Prosecutorial Authorities                                      36
               5(a)(5) and 6(b)(2)       Information or Assistance Refused                                                  46
               5(a)(6)                   Listing of Audit Reports                                                         40-43
               5(a)(7)                   Summary of Significant Reports                                                   13-35
               5(a)(8)                   Audit Reports—Questioned Costs                                                     39
               5(a)(9)                   Audit Reports—Funds to Be Put to Better Use                                        39
               5(a)(10)                  Prior Audit Reports Unresolved                                                     47
               5(a)(11)                  Significant Revised Management Decisions                                           47
               5(a)(12)                  Significant Management Decisions with Which OIG Disagreed                          47
               5(a)(13)                  Results of Peer Review                                                             47


              Section 4(a)(2): Review of Legislation                          reports for which corrective action has not been com­
              and Regulations                                                 pleted. Section 5(b) requires that the Secretary trans­
              This section requires the inspector general of each             mit to Congress statistical tables showing the number
              agency to review existing and proposed legislation              and value of audit reports for which no final action
              and regulations relating to that agency’s programs              has been taken, plus an explanation of why recom­
              and operations. Based on this review, the inspector             mended action has not occurred, except when the
              general is required to make recommendations in the              management decision was made within the preceding
              semiannual report concerning the impact of such leg­            year. To include a list of all significant unimplement­
              islation or regulations on the economy and efficiency           ed recommendations in this report would be duplica­
              of the management of programs and operations                    tive. Information on the status of any audit
              administered or financed by the agency or on the pre­           recommendations can be obtained through OIG
              vention and detection of fraud and abuse in those               upon request.
              programs and operations. Comments concerning leg­
                                                                              Sections 5(a)(5) and 6(b)(2): Information
              islative and regulatory initiatives affecting Commerce
                                                                              or Assistance Refused
              programs are discussed, as appropriate, in relevant
              sections of the report.                                         These sections require a summary of each report to
                                                                              the Secretary when access, information, or assistance
              Section 5(a)(3): Prior Significant                              has been unreasonably refused or not provided. There
              Recommendations Unimplemented                                   were no such instances during this semiannual period
              This section requires identification of each significant        and thus no reports to the Secretary.
              recommendation described in previous semiannual


                                                                         46
OIG SAR March 2011.qxd   5/31/11   11:07 AM    Page 47




              March 2011—Semiannual Report to Congress                                                        Reporting Requirements



              Section 5(a)(10): Prior Audit Reports                          Section 5(a)(13): Results of Peer Review
              Unresolved                                                     The most recent peer review of the Office of Audit
              This section requires a summary of each audit report           and Evaluation was conducted in 2009 by the Federal
              issued before the beginning of the reporting period for        Deposit Insurance Corporation’s (FDIC’s) Office of
              which no management decision has been made by the              Inspector General. FDIC OIG’s System Review Report
              end of the reporting period (including the date and            of our audit operations is available on our website.
              title of each such report), an explanation of why a            We received a pass rating, the highest available rating.
              decision has not been made, and a statement concern­           We have implemented all of FDIC OIG’s recommen­
              ing the desired timetable for delivering a decision on         dations for process and policy improvements.
              each such report. There are one NOAA, four NIST,
              and two Census reports more than 6 months old for              In 2009, we conducted our latest peer review, which
              which no management decision has been made.                    examined the Small Business Administration (SBA)
                                                                             OIG’s audit operations. SBA OIG has informed us
              Section 5(a)(11): Significant Revised                          that it implemented the recommendation we made in
              Management Decisions                                           our review.
              This section requires an explanation of the reasons for
                                                                             The most recent peer review of the Office of
              any significant revision to a management decision
                                                                             Investigations was conducted in 2008 by the State
              made during the reporting period. Department
                                                                             Department’s OIG. We were found compliant, the
              Administrative Order 213-5, Audit Resolution and
                                                                             highest available finding, with the quality standards
              Follow-up, provides procedures for revising a manage­
                                                                             established by the IG community and the Attorney
              ment decision. For financial assistance audits, OIG
                                                                             General guidelines. We implemented all of State OIG’s
              must concur with any decision that would change the
                                                                             suggestions for process and policy improvements.
              audit resolution proposal in response to an appeal by
              the recipient. There were three appeals this period.

              Section 5(a)(12): Significant
              Management Decisions with Which OIG
              Disagreed
              This section requires information concerning any sig­
              nificant management decision with which the inspec­
              tor general disagrees. Department Administrative
              Order 213-5 provides procedures for elevating unre­
              solved audit recommendations to higher levels of
              Department and OIG management, including their
              consideration by an Audit Resolution Council.
              During this period no audit issues were referred.




                                                                        47
OIG SAR March 2011.qxd   5/31/11   11:07 AM   Page 48




              Acronyms and Abbreviations                                       March 2011—Semiannual Report to Congress



              ACRONYMS AND ABBREVIATIONS

              AFF         Asset Forfeiture Fund                        MEP        Manufacturing Extension Partnership
              ATP         Advanced Technology Program                  NASA       National Aeronautics and Space
                                                                                  Administration
              BTOP        Broadband Technology Opportunities
                          Program                                      NIST       National Institute of Standards and
                                                                                  Technology
              CalEMA      California Emergency Management
                          Agency                                       NOAA       National Oceanic and Atmospheric
                                                                                  Administration
              CBS         Commerce Business Systems
                                                                       NPOESS     National Polar-orbiting Operational
              CFO         Chief Financial Officer
                                                                                  Environmental Satellite System
              CRU         Climatic Research Unit (University of
                                                                       NRFU       Nonresponse Follow-up
                          East Anglia)
                                                                       NTIA       National Telecommunications and
              DRIS        Decennial Response Integration System
                                                                                  Information Administration
              EDA         Economic Development
                                                                       OIG        Office of Inspector General
                          Administration
                                                                       OMB        Office of Management and Budget
              EOPSS       Executive Office of Public Safety and
                          Security (Massachusetts)                     OPQA       Office of Patent Quality Assurance
                                                                                  (USPTO)
              ESA         Economics and Statistics
                          Administration                               PBOCS      paper-based operations control system
              FDIC        Federal Deposit Insurance Corporation        PE2E       Patent End-to-End Project
              FEMA        Federal Emergency Management                 PHP        Patent Hoteling Program
                          Agency
                                                                       PSIC       Public Safely Interoperable
              FISMA       Federal Information Security                            Communications
                          Management Act
                                                                       PSP        Partner Support Program
              FOIA        Freedom of Information Act
                                                                       RMF        Risk Management Framework
              GSA         General Services Administration
                                                                       RRB        Risk Review Board (Census)
              GOES-R      Geostationary Operational
                                                                       SBA        Small Business Administration
                          Environmental Satellite-R Series
                                                                       TC         Technology Center (USPTO)
              HACLA       Housing Authority of the
                          City of Los Angeles                          TxDPS      Texas Department of Public Safety
              HCHB        Herbert C. Hoover Building                   USPTO      United States Patent and
                                                                                  Trademark Office
              IG          Inspector General
                                                                       VDC        Vacant Delete Check
              IT          Information Technology
              JPSS        Joint Polar Satellite System




                                                                  48
OIG SAR covers.qxd     5/31/11      11:02 AM      Page 1




                                          Office of Inspector General

               Budget and Administration
                                                                      Inspector General                                          Office of
                     Human Resources
                                                                                                                                 Counsel
                Information Technology
                                                                           Deputy
                                                                      Inspector General
                                                                      Associate Deputy
                                                                      Inspector General
                                                                     for Strategic Issues




                                   Office of Audit                                                                 Office of
                                   and Evaluation                                                                Investigations




         OIG Main Number                                                          OIG Hotline
         Inspector General . . . . . . . . . . . . . . . . . . 202.482.4661
                                                                                  Telephone . . . . . . . . . . . . . . . . . . . . . . . . . . . . 202.482.2495
         More Information                                                                                                                       or 800.424.5197
         Visit www.oig.doc.gov to learn more about our activities,                TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
         download reports and testimony, and subscribe to our                                                                                      or 800.854.8407
         RSS feed for website updates. E-mail website comments                    E-mail . . . . . . . . . . . . . . . . . . . . . . . . . . . . hotline@oig.doc.gov
         to oigweb@oig.doc.gov.




                             Photos courtesy U.S. Department of Commerce, U.S. Census Bureau, U.S. General Services Administration,
                                                       and National Aeronautics and Space Administration.
Office of Inspector General                        Semiannual Report to Congress
1401 Constitution Avenue, N.W.                     March 2011
Room 7898 C
Washington, DC 20230
www.oig.doc.gov
                                                                Office of Inspector General
                                                                U.S. Department of Commerce
OIG HOTLINE | 800.424.5197 | hotline@oig.doc.gov
